<html>
<title> - VIOLENCE ON THE BORDER: KEEPING U.S. PERSONNEL SAFE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





          VIOLENCE ON THE BORDER: KEEPING U.S. PERSONNEL SAFE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 9, 2015

                               __________

                           Serial No. 114-51

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-598 PDF                     WASHINGTON : 2015
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                               
                      
                      
                      
 
 
 
 
 
 
 
 
 
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
     Art Arthur, Staff Director, Subcommittee on National Security
                           Sarah Vance, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 9, 2015................................     1

                               WITNESSES

The Hon. Gregory B. Starr, Assistant Secretary, Bureau of 
  Diplomatic Security, U.S. Department of State
    Oral Statement...............................................     8
    Written Statement............................................     9
Ambassador William H. Moser, Deputy Director, Bureau of Overseas 
  Buildings Operations, U.S. Department of State
    Oral Statement...............................................     9
    Written Statement............................................    10
Ms. Sue Saarnio, Deputy Assistant Secretary, Bureau of Western 
  Hemisphere Affairs, U.S. Department of State
    Oral Statement...............................................    10
    Written Statement............................................    12
Mr. Robert L. Harris, Director, Joint Task Force-West, U.S. 
  Customs and Border Protection
    Oral Statement...............................................    12
    Written Statement............................................    13
Mr. Brandon Judd, President, National Border Patrol Council, 
  American Federation of Government Employees
    Oral Statement...............................................    13
    Written Statement............................................    15

                                APPENDIX

Mexico 2015 Crime and Safety Report: Mexico City.................    56
Letter to Congressman Cummings from Alejandro Estivill...........    72
Statement of Congresswoman Carolyn B. Maloney....................    73

 
          VIOLENCE ON THE BORDER: KEEPING U.S. PERSONNEL SAFE

                              ----------                              


                      Wednesday, September 9, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                   Washington, D.C.
    The committee met, pursuant to call, at 10:03 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Jordan, Amash, 
Gosar, DesJarlais, Farenthold, Massie, Meadows, DeSantis, 
Mulvaney, Buck, Walker, Blum, Hice, Russell, Carter, Grothman, 
Hurd, Palmer, Cummings, Maloney, Norton, Clay, Lynch, Connolly, 
Cartwright, Kelly, Plaskett, DeSaulnier, Welch, Lujan Grisham, 
and Cuellar.
    Chairman Chaffetz. Good morning. The Committee on Oversight 
and Government Reform will come to order. And without 
objection, the chair is authorized to declare a recess at any 
time.
    We have a very important hearing today. Appreciate you 
joining us. The title of this hearing, ``Violence on the 
Border: Keeping the U.S. Personnel Safe.''
    The United States is Mexico's largest trading partner and 
largest foreign investor. Mexico is the United States' third 
largest trading partner after Canada and China and is this 
country's second largest foreign supplier of petroleum.
    We have a lot of familial ties. We have people who have 
loved ones there. It's a great place to travel. It's one of the 
more beautiful places on the planet, a lot of recreation. A lot 
of reasons, good reasons to interact with the good people of 
Mexico and to enjoy one of the most amazing countries that is 
on the border of the United States of America. It is one of the 
busiest and most economically important borders in the world, 
with nearly 1 million legitimate travelers and nearly $1 
billion worth of goods legally crossing the border each day.
    But Mexico is also a dangerous place. I would argue it's 
one of the most dangerous places on the planet. To understand 
how dangerous it is, we don't have to look further than the 
State Department's own warnings about travel to Mexico. 
Specifically, the State Department warns, ``Gun battles between 
rival criminal organizations or with Mexican authorities have 
occurred in broad daylight on streets. Criminal organizations 
have created road blocks to prevent the military and police 
from responding to criminal activity. Carjacking and highway 
robbery are serious problems in many parts of the border 
region, and U.S. citizens have been murdered in such 
incidents.''
    According to the United States Department of State's Bureau 
of Diplomatic Security, Nuevo Laredo's municipal police was 
suspended in July of 2011, ``among allegations of large-scale 
corruption.'' Benjamin Galvan Gomez, who had been the mayor of 
Nuevo Laredo until 2013, disappeared on the night of February 
27, 2014, near his house, along with businessman Miguel Angel 
Ortiz.
    Prosecutors say that Galvan was kidnapped in Nuevo Laredo, 
killed and dumped near Monterrey about 135 miles south to the 
state of Nuevo Leon. Their bodies were found in the trunk of a 
car on March 1, 2014, according to press reports. In June of 
2012, a bomb exploded in Galvan's parking spot at City Hall, 
killing one bystander and injuring others.
    The month before, cartel members left the decapitated 
bodies of 14 people in a van in front of City Hall accompanied 
by the banner that claimed to be from Joaquin El Chapo Guzman, 
leader of the Sinaloa cartel. The banner threatened Galvan and 
accused him of working with the Zetas.
    In February 2013, the police chief of Nuevo Laredo 
disappeared, and his two brothers were found dead in the trunk 
of a car in Nuevo Laredo. Just yesterday--I happen to be a 
member of the Church of Jesus Christ of Latter Day Saints, and 
further to the south there's an article out about an LDS 
Mission President. Somebody from the United States, actually 
from my district, going down and serving a religious mission 
who was shot during a robbery in Mexico. It is a violent place, 
a dangerous place.
    The lawlessness is a direct result of drug cartels 
operating in Mexico evolving into massive criminal 
organizations. These cartels have expanded their operations 
into kidnapping, extortion, and murder. Unfortunately, this is 
not new news. It has been going on for some time. According to 
the National Border Patrol Councils--we'll hear testimony 
today--``The official death toll from cartel violence in Mexico 
is 60,000. However, the unofficial death toll in Mexico is over 
120,000 killed and another 27,000 missing or presumed dead.''
    Mexico ranked 103rd out of 175 countries in Transparency 
International's Corruption Perceptions Index, which ranks 
countries and terrorists based on how corrupt their public 
sector is perceived to be. It's in company of Algeria, China, 
Bolivia, Moldova, and Niger. According to the Institute for 
Economics and Peace ranking of countries from least to most 
violent, Mexico was 144 out of 162 countries surveyed, being 
similar to Lebanon and Colombia and others in terms of violence 
in 2015.
    Today, the Department still operates nine consulates in an 
embassy in Mexico City. Two of those consulates, just south of 
the United States border, are of particular interest in today's 
hearing. Matamoros and Nuevo Laredo, where I've been able to 
visit the Nuevo Laredo facility, both consulates operate 
directly across the Rio Grande River from the United States 
despite the State Department's warning, ``Violent criminal 
activity occurs more frequently along the northern border.''
    In attempt to approve safety of our personnel in those 
consulates, the Department is set to build new consulate 
compounds in both Matamoros and Nuevo Laredo. Despite these 
plans, construction has been long delayed. Both of these 
facilities are being constructed under the Department's design 
excellence initiative.
    Design excellence takes longer than the standard embassy 
design, which has been used successfully by State in previous 
years. Several independent studies have gone and shown that 
they build them faster and less expensive. Unfortunately, the 
State Department, under President Obama and Secretary Clinton, 
changed the way we do this. They're now more expensive, they're 
slower, and consequently, we keep more people in danger for 
long periods of time.
    Given State's own warnings about the danger Mexico poses to 
U.S. citizens and officials, it seems that building these 
facilities should be a priority; yet, it has been a fiasco over 
the last few years. Construction will not be completed until 
November 2017 in Nuevo Laredo and until spring of 2019 in 
Matamoros.
    We had a chance, Stacey Plaskett and I, had a chance to 
visit the embassy in Mexico City. State Department entered into 
a contract in Mexico City to purchase from Colgate-Palmolive a 
$120 million piece of land to build a new embassy. We have paid 
roughly half of that, $60 million to Colgate-Palmolive. But the 
transfer does not complete until Colgate-Palmolive cleans up 
the site of all contaminants as approved by the Mexican 
environmental authorities.
    But the place that they decided to buy--and we have 
documentation of this--was a brownfield. It was dirty. It was 
toxic. It was not ready to be built on. They thought they could 
clean it up, but it continues to be so dirty today that the 
Mexican Government will not approve it because it's too toxic.
    So we have an older facility that's not adequately 
fortified. We have massive growth--massive growth in the number 
of personnel that they want to go into this embassy, and the 
construction costs have jumped 38 percent to $763 million. In 
fact, if you look at the total costs, including the site 
acquisition, design and construction, we're looking at $943 
million to build this embassy that is now years behind.
    Part of the reason that increase that's happening there is 
the number of desks. The number of desks projected at the 
beginning was going to be 891; now it's 1,335. Why the 
increased number of desks? In large part because of the 
security problems in Mexico. Yes, we do increase the amount of 
trade, but we need more security personnel to do the 
assessments from all the various agencies. This puts the total 
at roughly $706,000 per desk.
    Now, the original embassy in Mexico City was scheduled to 
be completed in February of 2019, but we're looking at least 
middle of 2020, if not further. It has still--still to this day 
not been approved by the Mexican Government. The money has been 
paid, but we're not able to move into that new facility. And 
it's totally unacceptable.
    The State Department also recently indicated it plans to 
take away danger pay allocations for U.S. personnel who have 
been receiving it in Mexico. Danger pay is additional money 
provided to State Department employees who are willing to work 
in a particularly dangerous area. It defies logic for the State 
Department to warn Americans about the high risk of danger--
high risk in danger and traveling in Mexico but to end danger 
pay for diplomats here.
    Behind the scenes, the State Department says, ``Oh, don't 
worry about it. Don't worry about it. They'll be taken care 
of.'' Having traveled to Mexico a couple of times now and 
talking to State Department personnel, it's right at the top of 
their plate. Right at the top of their issue. Don't take away 
our danger pay.
    You have people who work in the consulate in Nuevo Laredo 
directly across the border who have literally just a couple of 
square miles of which they can move. I've talked to the State 
Department personnel who cannot freely go out and shop or go to 
a movie or do anything other than stay on that compound because 
of the extreme violence and danger, and yet the State 
Department wants to take away that danger pay.
    We have people who are shaking their heads saying, ``Oh, 
that is silly. That's ridiculous.'' But you know what? How 
ironic that the House Republicans are fighting to help keep the 
danger pay for the State Department employees. And they want to 
change that in Mexico. And that doesn't make sense to us. We're 
going to explore that.
    Crime in northern Mexico has already impacted U.S. assets 
in the country. On June 7, a truck leaving the United States 
consulate in Matamoros was hijacked by armed robbers. The 
hijackers stole more than 11,500 U.S. border crossing cards, 
which are visas that can be used to enter the United States. 
Some of these were recovered, but nearly 2,000 of these cards 
and a dozen passport cards are still missing.
    The hijacking of this truck should come as no surprise to 
the State Department. The Department's own travel warning makes 
it clear that, ``No highway route through Tamaulipas,'' which 
is the state, which includes Matamoros and Nuevo Laredo, ``are 
considered safe.''
    American assets in the sky are also at risk. In June, 
members of the Zeta cartel were shot at at a Customs and Border 
Patrol helicopter, hitting it twice and forcing it to land near 
Laredo, Texas. I've seen that helicopter. I talked to the 
pilot. I talked to the other gentleman who was on that 
helicopter. They were on the United States side of the border 
but taking fire from the Mexican side of the border, a pretty 
brazen attack on a U.S. helicopter doing patrol on the United 
States side of the border.
    Previous to that there were attacks on Mexican helicopters 
from drug cartel members. It actually took down a helicopter in 
another part of Mexico. While no one was injured, this attack 
made it clear that cartels have no reservations about expanding 
the scope of their violence on the American side of the border. 
Danger and violence in Mexico is apparently not much of a 
priority for this administration.
    Secretary Kerry, I understand he's got a busy job. But here 
we have one of the most important partners; the most important 
relationships that we have in the world is with Mexico. And in 
the 29 months since Secretary Kerry has been the Secretary of 
State, how many times has he visited Mexico? One time. It's not 
a priority for this administration.
    Instead, they're taking away danger pay. They're trying to 
make the case that, ``Oh, it's all safe. Everything's good 
here.'' And yet, I've got an LDS Mission president who was shot 
yesterday. I've got border patrol agents that are being shot 
out of the sky. I've got people who know that there are 
violent--by the tens of thousands of people being killed on 
that side of the border.
    And we, as the United States of America, need to do better. 
We have to do better. They're our next door neighbors. There's 
over 100 million people there. That demands a little bit more 
attention from the Secretary than one quick visit down there. 
It makes me wonder whether they want Americans to think things 
are fine and safe for America, and it's hard to understand why 
so little diplomatic effort had been there.
    We have a lot to discuss today. Very frustrated with the 
State Department and the requests made on July 15. We had sent 
a letter. It barely goes on to the second page. We had four 
asks. And on Friday, before this hearing, going into Labor Day 
weekend, State Department dumped on our desk 110,000 documents. 
Couldn't do a rolling production. Couldn't allow their staff to 
pour through this.
    But this is how the State Department acts with the 
Oversight and Government Reform Committee. So we'll digest 
that. But to dump 110,000 documents, honest. Friday, right 
before Labor Day, we're coming into this hearing. You all knew 
that we had this. Come on. Really? You expect that to go 
unnoticed? Unacceptable. Unacceptable.
    My question for the panel today, do we have all the 
documents? I want you to certify and tell me that I have 
everything I asked for. And that will be one of my first 
questions.
    Yield to now the gentleman from--our ranking member, Mr. 
Cummings, from Maryland, for his opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank you for holding this hearing today. And as I listen to 
you, I'm hoping that our witnesses listen very carefully. I 
think you raised some legitimate concerns and I'm hoping that 
they will address them.
    I also want to thank Congressman Vela, the ranking member 
of the Subcommittee on Border and Maritime Security, for being 
a leader on this issue and for promoting aggressive action to 
protect the United States and our diplomatic corps overseas.
    Drug cartel violence in Mexico threatens American and 
Mexican citizens and their families on both sides--on both 
sides of the border. It also negatively impacts our important 
bilateral trade relationship with Mexico. Combatting the 
violence and stabilizing this region needs to be a top priority 
for both countries.
    Congressman Vela's position is that the consulates should 
remain open to support American citizens and economic interests 
on both sides of the border. And I agree with him, and I find 
his argument quite persuasive.
    Closing U.S. consulates in Mexico will simply destabilize 
the region making our borders less safe. Consulates in Mexico 
play a critical role in implementing Laredo initiative, which 
is our Nation's $2.5 billion investment in disrupting organized 
groups, institutionalizing the rule of law, and building 
stronger communities.
    Many of our U.S. consulates also house our Federal law 
enforcement efforts to combat the drug trade and strengthen 
border security. In addition, many U.S. companies, including 
DuPont, Tyco, and General Electric, have significant business 
interests in Mexico. These other businesses provide 65,000 jobs 
in Matamoros, our consular district alone, and they depend on 
the support provided by U.S. consulates. U.S. consulates also 
provide crucial services to U.S. citizens residing in and 
visiting Mexico.
    Our diplomatic relationship with Mexico is a critical tool 
for stabilizing the region. We need to strengthen this 
diplomatic relationship, especially in regions that need it 
most, not damage it by closing these consulates, as some have 
suggested. I believe Mexico should do more to enhance security 
in the region. But the U.S. also has a role to play, such as 
stemming the flow of guns.
    Congressman Vela has suggested establishing secure economic 
zones in northern Mexico similar to those that have already 
been implemented in southern Mexico. These zones would include 
a joint economic plan that would provide more opportunities for 
communities on both sides of the border. These ideas deserve 
serious consideration.
    We must ensure that Mexico is doing everything it can to 
root out the corruption that plagues law enforcement and civil 
institutions in order to effectively combat drug cartels. 
Greater stability will encourage more economic investment.
    On our side of the border the United States must do more to 
stem the flow of guns into Mexico. In March, the Bureau of 
Alcohol, Tobacco, and Firearms reported that more than 
100,000--more than 100,000 guns were recovered in Mexico and 
submitted for tracing from 2009 to 2014. Of those 100,000 guns, 
70 percent of them originated in the United States. Guns that 
are entering Mexico are being trafficked in from the United 
States.
    This is one reason I'm proud to cosponsor with my good 
friend, Congresswoman Maloney, the Gun Trafficking Prevention 
Act, which is being reintroduced today on a bipartisan basis by 
our colleague, Mrs. Maloney. If we can stem illegal gun 
trafficking in the United States, there's no doubt the positive 
effects will be seen by our neighbors to the south.
    Finally, let me say this: The United States must take all 
appropriate steps to ensure that our diplomats are safe and 
fully and fairly compensated. I agree with you, Mr. Chairman, 
that that must happen. This includes building modern, secure, 
diplomatic facilities. Construction plans are underway in 
Mexico, Matamoros, and Nuevo Laredo to build new diplomatic 
facilities that will house Marine barracks to ensure even 
greater protection of our personnel.
    I understand that the State Department is changing how it 
pays employees serving in dangerous and difficult environments. 
I appreciate the Department's efforts to use resources 
effectively and consistent with the law. But I believe no 
employees who serve on the front lines abroad should face 
reductions in pay.
    I look forward to hearing from our witnesses about how to 
further improve the safety of U.S. personnel while promoting 
our longstanding and mutually-beneficial relationship with 
Mexico.
    And with that, Mr. Chairman, I yield back.
    Chairman Chaffetz. Thank the gentleman.
    Chairman Chaffetz. And I would like to associate myself 
with your comments about some of our colleagues, Mr. Vela, as 
well as Mr. Cuellar, who is here and joining us on the stand. 
My understanding is that Congressman Vela would also like to 
participate with us today.
    Even those these two gentlemen are not on our committee, we 
have had a tradition of allowing and asking unanimous consent 
to allow people to sit in on these hearings. So I would ask 
unanimous consent that our colleagues, Congressman Filemon Vela 
and Congressman Henry Cuellar be allowed to fully participate 
in today's hearing.
    Without objection, so ordered.
    We appreciate the perspective from these two gentlemen. 
They live in great proximity to the issues of things that we're 
going to be talking about today, and they've been invaluable to 
me in providing a good, I think, balanced perspective. And 
appreciate their passion on this issue and their care for the 
loved ones that are there in that area. Appreciate their 
perspective. Glad they're joining us today.
    We'll now recognize our first panel of witnesses, but I 
would like to tell members that I will hold the record open for 
5 legislative days for any members who would like to submit a 
written statement.
    Chairman Chaffetz. We're pleased to be joined by Mr. 
Gregory Starr, Assistant Secretary for the Bureau of the 
Diplomatic Security at the United States Department of State.
    Ambassador William Moser is the Principal Deputy Director 
of the Bureau of Overseas Building Operations at the United 
States Department of State. And he has a long storied history 
at the State Department. Appreciate your service and thank you 
for joining us here today.
    Ms. Sue Saarnio--did I pronounce it properly? I hope so--is 
the Deputy Assistant Secretary for Western Hemisphere Affairs 
at the United States Department of State.
    Mr. Robert Harris is the Director of the Joint Task Force-
West at the United States Customs and Border Protection.
    And Mr. Brandon Judd is the President of the National 
Border Patrol Council of the American Federation of Government 
Employees. We thank you all for being here.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. So if you will please rise and raise your 
right hand.
    Thank you. Do you solemnly swear or affirm that the 
testimony you're about to give will be the truth, the whole 
truth and nothing but the truth?
    Thank you. You may be seated.
    Let the record reflect that all witnesses have answered in 
the affirmative.
    In order to allow time for discussion, we would appreciate 
limiting your verbal testimony to 5 minutes. Your entire 
written statement will be made part of the record.
    Mr. Starr, we will start with you and then we will simply 
go through and get to the question portion of the hearing.
    Mr. Starr, you're now recognized for 5 minutes.

                       WITNESS STATEMENTS

                 STATEMENT OF GREGORY B. STARR

    Mr. Starr. Chairman Chaffetz, Ranking Member Cummings, and 
distinguished committee members, good morning. And thank you 
for your invitation to appear today to discuss the security 
situation near U.S. consulates at the border in Mexico. We 
share your concerns regarding the security of the U.S. 
personnel in Mexico, and I look forward to discussing these 
issues with you today.
    Our national interests often require us to serve in 
dangerous places around the world. However, it is clear that 
the U.S. Embassy and consulates in Mexico are exceptionally 
important platforms for diplomatic and consular engagement to 
advance our national interests.
    I was in Mexico a few weeks ago and can bear witness to the 
hard work and dedication of the U.S. personnel serving on both 
sides of the border. I also saw the challenging circumstances 
in which many of our people operate. Environments such as 
Mexico involve constantly shifting threats that require 
comprehensive planning, agile decisionmaking, and deft 
diplomacy. Most of all, they require us to be present, fully 
engaged, and 100 percent committed to the security of our 
people and our facilities.
    In Mexico, we engage with and seek support where necessary 
from a host government that recognizes Mexican and American 
vital interests are linked and that bilateral cooperation is 
required to counter the threats posed by transnational 
criminals. In every incident, threat, and attack in Mexico, 
this only underscores the continued importance of the strong 
bilateral relations and the comprehensive security cooperation.
    Our embassy and consulates in Mexico play a critical role 
in providing services to American citizens, issuing visas, and 
implementing key foreign policy objectives. I work closely with 
my colleagues in the Bureau of Overseas Buildings Operations as 
the Department builds diplomatic missions in Mexico to increase 
safety and security. These new facilities are vital platforms 
for diplomacy, all of which will meet the rigorous Overseas 
Security Policy Board standards for safety and security.
    During my recent visit to some of the border consulates, I 
walked with the principal officers and regional security 
officers to view the additional security measures taken and 
augmented host country security presence protecting our 
facilities. These protective features allow us to operate 
necessary programs that strengthen Mexico police capacity, 
reinforce critical law enforcement cooperation, and improve 
security along our southern border.
    These consulates also aid the expansive bilateral trade 
that supports both countries totaling over $500 billion 
annually. But it is simply not enough to improve physical 
security. We are also training the Foreign Service community on 
how to better respond in these environments.
    All officers under chief of mission authority at our border 
post in Monterrey are required to take the Foreign Affairs 
Counter Threat training course, also known as FACT, which 
teaches them hard security skills. As a result, personnel in 
our missions are better prepared for operating in challenging 
environments, and we are working towards making FACT training 
universal for all Foreign Service personnel at our posts 
overseas regardless of the threat levels.
    I recognize the hardships that our people and their 
families endure in such environments. It is a testament to 
their courage, their commitment, and the important work that 
they are accomplishing abroad. Having served over 30 years in 
the Foreign Service, I understand wholeheartedly the sacrifices 
our people make. It is simply woven into the fabric of what 
uniquely defines the Foreign Service community. Knowing the 
challenges ahead, they willingly and courageously step up to 
fill the important positions that we have in Mexico and 
throughout the world.
    I look forward to working with Congress to ensure our 
personnel are serving abroad safely and that they continue to 
have safe platforms for advancing our national interests. And I 
want to thank Congress for the resources and support that you 
have provided over the years, and we look forward to your 
continuing support in years ahead.
    Thank you. And I'll be glad to answer any questions that 
you have.
    Chairman Chaffetz. Thank you.
    [Prepared statement of Mr. Starr follows:]
    [For complete submitted testimony, please see the following 
website: https//oversight.house.gov/hearing/construction-costs-
and-delays-at-the-u-s-embassy-in-kabul]
    Chairman Chaffetz. Ambassador Moser, you're now recognized 
for 5 minutes.

            STATEMENT OF AMBASSADOR WILLIAM H. MOSER

    Mr. Moser. Good morning, Chairman Chaffetz, Ranking Member 
Cummings, and members of the committee. And thank you very much 
for the invitation to appear before the committee today to 
discuss the U.S. consulates in northern Mexico.
    Security is a top priority for the Bureau of Overseas 
Building Operations. Since the enactment of the Secure Embassy 
Construction and Counterterrorism Act, SECCA, of 1999, OBO has 
completed 122 more secure facilities and have an additional 39 
in design or under construction. These facilities provide more 
than 35,000 people with a safer workplace.
    Constructing secure diplomatic facilities in Mexico 
underscores our commitment to strengthening our bilateral 
relationship and reflects increased U.S.-Mexican commitments to 
issues such as migration, counter-narcotics, trade, and border 
security.
    Over the last 7 years, OBO has constructed new Consulate 
General facilities in Mexico in Ciudad Juarez, Tijuana, and 
most recently in Monterrey. Together, these facilities provide 
safer work space for over 770 staff.
    Our work continues in northern Mexico with the new U.S. 
Consulate General in Nuevo Laredo under construction and 
expected to be completed in 2017. This new consulate will 
provide workspace for approximately 150 staff. Another U.S. 
Consulate General in Matamoros is in design and expected to be 
awarded for construction this fall and completed in 2019. This 
new Consulate General is planned to accommodate approximately 
197 staff.
    We have an active and aggressive site search underway in 
Mexico to meet our commitments. We are under contract for new 
Consulate General sites in Nogales, Guadalajara, Hermosillo, 
and anticipate closing on these sites in 2015 and 2016. We are 
also in the process of evaluating sites in Merida to replace 
the existing facilities.
    Additionally, a new U.S. Embassy in Mexico City is 
currently in design and includes office space for over 1,300 
staff members, a U.S. Marine security guard residence, and a 
consular area with over 75 teller windows.
    OBO works closely with Diplomatic Security every step of 
the way on all of our projects. OBO and Diplomatic Security 
physical, technical, and industrial security specialists are 
involved in project development from early site selection, 
planning, design, construction, and through occupancy. All U.S. 
diplomatic facilities built by OBO meet the Department's 
standards for security and life safety.
    By 2020, we expect to have constructed or broken ground on 
over nine new diplomatic facilities in Mexico that will serve 
as secure platforms from which to conduct diplomacy and to 
fulfill foreign policy objectives for many years to come.
    And I'm happy to answer your questions at any time.
    Chairman Chaffetz. Thank you.
    [Prepared statement of Mr. Moser follows:]
    [For complete submitted testimony, please see the following 
website: https//oversight.house.gov/hearing/construction-costs-
and-delays-at-the-u-s-embassy-in-kabul]
    Chairman Chaffetz. Ms. Saarnio, you are now recognized for 
5 minutes.

                    STATEMENT OF SUE SAARNIO

    Ms. Saarnio. Chairman Chaffetz, Ranking Member Cummings, 
distinguished members of the committee, thank you for the 
opportunity to testify before you today.
    As the Deputy Assistant Secretary of State responsible for 
our Mexico portfolio in the Western Hemisphere Bureau, I want 
to assure you, as my colleagues have, that the safety and 
security of our colleagues in Mexico are our top priority.
    I started my diplomatic career in Mexico City, and I would 
be proud to serve in Mexico again. I'd like to share with you 
today the work that the State Department performs to assist 
American citizens in Mexico's border region. I will highlight 
the measures we're taking to enhance security in Mexico through 
strong, bilateral cooperation, while ensuring the safety of 
U.S. personnel, particularly of those serving in the U.S. 
consulates along the U.S.-Mexico border.
    The State Department closely examines all threats to our 
diplomats, locally-employed colleagues, and U.S. facilities. 
The Department assesses daily the risks the U.S. personnel face 
as they do their jobs in a constantly-shifting landscape. We 
seek a balance between the critically-important work our people 
do, including the consular services provided to American 
citizens in Mexico, and the inherent risk of working in a 
challenging security environment.
    At every step, we work to ensure the security and safety of 
all American citizens, but particularly our diplomatic 
colleagues in Mexico. We remain vigilant and we analyze 
carefully new potential threats.
    Our embassy and our consulate personnel meet frequently 
with Mexican Federal, state, and local counterparts to discuss 
these concerns and to assure that all appropriate measures are 
being taken to protect our personnel and U.S. citizens of 
business.
    We have systems in place that allow us to communicate 
rapidly and effectively with U.S. citizens when the security 
situation changes. Our travel warning, country-specific 
information, and security messages provide U.S. citizens with 
our best assessment of the risks they may face when traveling 
to certain regions in Mexico.
    The United States and Mexico share a mutual investment in 
security and prosperity. The State Department, along with key 
U.S. Government agencies, such as the Justice Department, the 
Department of Homeland Security, the Department of Defense, and 
others work with the Mexican Government through the Merida 
Initiative to combat transnational criminal organizations and 
to protect our citizens from the crime and violence these 
organizations generate.
    Because of our robust and ongoing dialogue with Mexico on 
security issues, Mexican Federal authorities have taken action 
to improve security conditions and reduce violence, 
particularly in the state of Tamaulipas, where the United 
States Government is represented at the border consulates of 
Nuevo Laredo and Matamoros.
    The bilateral economic relationship between our two 
countries is huge. Indeed, the two-way trade topped $550 
billion in 2014. Eighty percent of that trade crossed the U.S.-
Mexico land border. Our integrated economic relationship 
supports thousands of jobs in both countries and hundreds of 
thousands of people legally cross our border each day. Mexico 
remains the top foreign destination for travelers from the 
United States. In fact, we estimate that on any given day there 
are 1.5 million American citizens in Mexico.
    Our U.S. Consulate General in Nuevo Laredo, and Matamoros 
in particular, support this vibrant relationship through visa 
services for tourists, students, and workers. They provide 
critical services to the some 138,000 U.S. citizens living in 
their consular districts, and to thousands of U.S. visitors and 
the commercial travelers.
    These services include passport issuances and renewals, 
issuances of consular reports of birth abroad, providing 
information on voter registration, and offering notary services 
for documents to be used in the United States. The consulates 
also provide emergency services to American citizens who are 
arrested, kidnapped, or face temporary destitution in Mexico.
    We share the committee's concern about the levels of 
violence in certain areas in Mexico, and we assess the overall 
environment on a daily basis. We believe that U.S. interests 
are best protected by maintaining a strong presence on the 
ground in Mexico and continuing our close law enforcement and 
security relationship. We review and monitor the situation 
daily and have been taking all appropriate steps to ensure the 
safety of American citizens, including government personnel.
    I want to assure you, this is and will continue to be a top 
priority for me, my leadership, and the Department.
    Thank you for the opportunity to testify.
    Chairman Chaffetz. Thank you.
    [Prepared statement of Ms. Saarnio follows:]
    [For complete submitted testimony, please see the following 
website: https//oversight.house.gov/hearing/construction-costs-
and-delays-at-the-u-s-embassy-in-kabul]
    Chairman Chaffetz. Mr. Harris, you're now recognized for 5 
minutes.

                 STATEMENT OF ROBERT L. HARRIS

    Mr. Harris. Chairman Chaffetz, Ranking Member Cummings, and 
distinguished members of the committee, I appreciate the 
opportunity to appear before you today to speak about the 
Department of Homeland Security's Southern Border and 
Approaches Campaign's Joint Task Force-West, which represents 
the next evolution of border security on our Nation's southern 
border.
    I assumed the position of director of the newly-created 
pilot joint task force on December 15, 2014. Prior to this 
position, I was the first then-commander of Customs and Border 
Protection's South Texas campaign where I served from February 
2012 to December 2014 in Laredo, Texas.
    I've held numerous executive leadership positions in my 
more than 30-year Border Patrol career, to include serving as 
chief patrol agent of the Laredo, Texas, and Spokane, 
Washington, Border Patrol sectors; chief of intelligence 
operations and as the deputy chief of the U.S. Border Patrol 
where I led and managed the transition of the U.S. Border 
Patrol into the then newly-created U.S. Customs and Border 
Protection in 2003.
    I want to take a moment to speak to you about the Southern 
Border and Approaches Campaign and the Joint Task Force-West. 
This campaign directs DHS resources in a collaborative fashion 
with pre-identified, component-validated, Secretary-approved 
targets, spanning a range of threats and challenges, including 
the terrorist threat, illegal immigration, drug, human, and 
arms trafficking, and the illicit financing of all of these 
operations.
    I'm working hand in hand with my counterparts, Vice Admiral 
William Dean Lee from the U.S. Coast Guard, director of Joint 
Task Force-East; and Special Agent in Charge David Marwell, HSI 
special agent in charge director of joint task force 
investigations.
    Although we are in our early stages, we are working to 
coordinate DHS forces and leverage Department of Defense 
international, State, local, and tribal resources to combat the 
transnational criminal organizations who exploit 
vulnerabilities in our southern border and approaches. This 
level of integration among DHS component agencies is 
unprecedented since the creation of the department in 2003.
    The Joint Task Force-West will secure the southern border 
and its approaches through departmental unity of effort, 
thereby integrating and prioritizing DHS security operations. 
Our five primary objectives in Joint Task Force-West are, 
integrate and align our intelligence capabilities; 
institutionalize integrated counternetwork operations to 
identify and target transnational criminal organizations and 
their illicit networks; prioritize investigative efforts to 
disrupt, degrade, and dismantle transnational criminal 
organizations and illicit networks; strengthen international 
prosecutorial and deterrent efforts against transnational 
criminal organizations enterprises and significant activity 
impacting the Joint Task Force-West joint operating area; and 
finally, advance the Joint Task Force-West mission through 
unified communication and messaging efforts.
    The structure of the Joint Task Force-West focuses cross-
departmental and integrated counternetwork operations on 
strategic objectives across four geographic corridors: 
California, Arizona, New Mexico, West Texas, and South Texas. 
The Joint Task Force-West will focus on creating and 
implementing a standardized methodology for identifying and 
prioritizing strategic targets based on national security, 
public safety, and border security threats.
    We have begun the threat prioritization process by 
developing a concept of operations plan and courses of action 
for each corridor. The goal will be to expedite integrated 
counternetwork operations against a list of prioritized 
transnational criminal organizations across the southwest 
border on October 1, 2015. This has never before been done in a 
coordinated and integrated means across the entire southwest 
border.
    These corridor operations will expand our ability to impact 
illicit networks beyond the border from their point of origin 
to destination point through integrated DHS and interagency 
cooperation. These joint efforts will result in consequence 
application to identified targets through investigation, 
enforcement, and administrative actions. The joint task force 
framework also enables DHS to streamline our collaboration, 
innovation, and integration with other government entities.
    For example, in the South Texas corridor, we have taken 
steps to move past collaboration and into the integration of 
intelligence, investigation, and interdiction resources, and 
have conducted counternetwork operations against prioritized 
threats. This new partnership further reduces institutional 
barriers and duplication of effort, provides for a unity of 
effort understanding the threat network, and enhances our 
ability to dismantle these networks.
    I am confident that moving forward the Southern Border and 
Approaches Campaign will effectively disrupt, degrade, and 
dismantle threats in a strategic and coordinated manner like 
never before and improve our ability to combat criminal 
organizations who present a threat to our efforts to secure the 
southern border.
    I look forward to answering any questions.
    Chairman Chaffetz. Thank you.
    [Prepared statement of Mr. Harris follows:]
    [For complete submitted testimony, please see the following 
website: https//oversight.house.gov/hearing/construction-costs-
and-delays-at-the-u-s-embassy-in-kabul]
    Chairman Chaffetz. Mr. Judd, you're now recognized for 5 
minutes.

                   STATEMENT OF BRANDON JUDD

    Mr. Judd. Thank you, Chairman Chaffetz, Ranking Member 
Cummings.
    In June, a CBP helicopter was shot and forced down in 
Laredo, Texas. To many in Washington, this was a wakeup call to 
the increasing violence on the Mexican border. Unfortunately, 
this was far from an isolated incident.
    For example, in 2014, less than 100 miles from the 
helicopter shooting, Border Patrol Agent Javier Vega was 
murdered defending his family from two armed illegal immigrants 
while on a fishing trip. One of the murderers had been deported 
four times, the other twice for illegally crossing the border.
    Twenty years ago, and about the time I joined the Border 
Patrol, the Zeta, Sinaloa, Gulf, and Knights Templar cartels 
did not exist or were not widely known. Although narcotics and 
illegal immigrant smuggling were conducted by organized crime, 
it was not nearly on the level we see the cartels operating 
today. There were even relatively small-time players conducting 
smuggling operations within a given area of operations.
    Although violence could and did erupt, the older generation 
of smugglers took the long view. They would rather risk losing 
a load of narcotics to the Border Patrol than opening fire on 
agents. Violence brought unwanted attention on both sides of 
the border, and that was bad for business. This all began to 
unravel in the early 2000s with the emergence of the drug 
cartels.
    These cartels are well organized, heavily armed, and 
pathologically violent. To give you a sense of the violence, 
the official death toll--as you quoted earlier--the official 
death toll from the cartel violence in Mexico is 60,000. This 
is more than the United States military lost in Vietnam. 
However, the unofficial death toll in Mexico is over 120,000 
killed and another 27,000 missing and presumed dead.
    In Mexico, the cartels kill without hesitation or fear of 
prosecution. In May of this year, cartel members shot down a 
Mexican Army helicopter in the state of Jalisco. Why would we 
expect them to behave any differently on the U.S.-Mexico 
border?
    The second factor driving the increased violence is the 
rise of criminal aliens. When I first started in the Border 
Patrol, if you were a citizen of Mexico, we simply took down 
your information, took a single fingerprint, loaded you on a 
bus and drove you to the border for repatriation. It was a 
revolving-door border enforcement policy with cases where 
agents often arrested the same individual twice in the same 
shift.
    Three positive developments, however, changed this. The 
first was the change in the way we collected information. 
Instead of just capturing one fingerprint, we began taking the 
prints of all ten fingers and running the prints of those 
arrested against all criminal databases kept in the United 
States Department of Justice. We were then able to identify 
with certainty criminal aliens attempting to reenter the United 
States or to identify those who were arrested during interior 
patrol activities.
    The second positive step was the implementation of the 
various consequence delivery systems used in certain places 
along the border, and the third was Immigration and Customs 
Enforcement's criminal deportation program.
    I want to be very clear on this, especially given the 
recent incendiary comments about who is crossing the border and 
the assertions that the border is far safer than it has ever 
been: In 2014 ICE deported 177,000 convicted criminals. Of this 
number, 91,000 were arrested by the Border Patrol trying to 
illegally reenter this country.
    To put this figure in perspective, in 2014 the Border 
Patrol apprehended and arrested just under 500,000 illegal 
immigrants. Meaning that one in every five arrests last year by 
the Border Patrol was a criminal alien. Almost 50 percent of 
the criminal aliens supported in 2014 were convicted of 
aggravated felonies. These charges include murder, rape, sexual 
assault of a child, and drug and weapons trafficking. These are 
not petty criminals, and approximately 60 percent of those 
deported last year had already been deported at least once 
before.
    This is the challenge we are facing at the border today. 
There are those who will point to lower apprehension rates and 
tell you the border is secure. Border Patrol agents, however, 
throughout this nation will tell you the border is not secure 
and the southwest border certainly is not safe.
    We know what the problems are. What can we do to improve? 
First thing, increase manpower. Currently, there are 21,370 
Border Patrol agents in this country. And that's actually what 
Congress mandates that we have. We're actually about 2,000 
less, under that. So we don't even have the floor that Congress 
has mandated that we maintain. We do not have to double the 
size of the Border Patrol to gain operational control of the 
border, but we are, in my opinion, approximately 5,000 agents 
short of where we should be.
    Secondly, supervisory staffing levels. The Border Patrol is 
an extremely top-heavy organization with far too many layers of 
management. The average large police department has one 
supervisor for every ten officers. The Border Patrol has one 
supervisor for every four agents. The committee should mandate 
a ten-to-one ratio and achieve it through attrition in the 
supervisory ranks. This could easily return another 1,500 
agents to the field.
    Because of time, I'm just going to point out the other 
points. We need to continue with interior enforcement, we need 
to improve our training, and we need to prosecute assaults 
against Border Patrol agents. In this manner, I believe that we 
will decrease the violence on the border and we will help to 
maintain border security.
    Thank you very much, and I look forward to answering your 
questions.
    Chairman Chaffetz. Thank you.
    [Prepared statement of Mr. Judd follows:]
    [For complete submitted testimony, please see the following 
website: https//oversight.house.gov/hearing/construction-costs-
and-delays-at-the-u-s-embassy-in-kabul]
    Chairman Chaffetz. I thank you all for your participation 
and your service to this country.
    I'll now recognize myself for 5 minutes to our three State 
Department witnesses.
    Four people on this committee, myself, Elijah Cummings, Ron 
DeSantis, and Steve Lynch sent a letter dated July 15, 2015. My 
question is, what percentage of the documents asked for in this 
letter has the Congress--has this committee, have they been 
given?
    Ambassador Moser, do you know?
    Mr. Moser. I don't know the exact percentage.
    Chairman Chaffetz. Can you use your microphone, please.
    Mr. Moser. Excuse me. I'm sorry. I don't know the exact 
percentage sir. I do know that we have provided 150,000 pages 
of documents.
    Chairman Chaffetz. It doesn't matter unless we get the 
right percentage.
    So Ms. Saarnio----
    Ms. Saarnio. Saarnio.
    Chairman Chaffetz. --what percentage?
    Ms. Saarnio. Sir, I'm not aware of that. That would be in 
Ambassador Moser's----
    Chairman Chaffetz. It's directed to Secretary Kerry.
    Mr. Starr, what percentage of the documents do we have?
    Mr. Starr. I do not know, sir.
    Chairman Chaffetz. Should we issue a subpoena, Mr. Starr?
    Mr. Starr. I believe that most of the documents are OBO-
produced documents. I know that they're working hard to----
    Chairman Chaffetz. Ambassador Moser, is that true? Where 
are these documents?
    Mr. Moser. Sir, we have a process for producing them. And I 
do want to assure you that I or members of my staff are more 
than happy to work with your staff in order to prioritize----
    Chairman Chaffetz. We sent the letter on July 15, and you 
can't tell us that we got all the documents. So what do we need 
to do to get there? Do I need to issue a subpoena?
    Mr. Moser. Sir, we will work with you to try to produce the 
documents that you require.
    Chairman Chaffetz. When will you have all those documents 
to us?
    Mr. Moser. Sir, I can't tell you how fast the process will 
work.
    Chairman Chaffetz. That's for sure. I agree with you on 
that. I shouldn't have to waste any of my time asking for 
documents that we requested back in July knowing that we were 
working towards a hearing on this date.
    Mr. Harris, of the border, the Secure Fence Act of 2006 
defined operational control as, ``the prevention of all 
unlawful entries into the United States, including entries by 
terrorists, other unlawful aliens, instruments of terrorism, 
narcotics, and other contraband,'' The goal of this was to 
achieve 100 percent operational control.
    Based on your knowledge, your experience, what percentage 
of the border today is secure?
    Mr. Harris. Sir, I would have to defer to CBP to give a 
more detailed response to that question. In my current 
capacity, that's not within my area of focus.
    Chairman Chaffetz. Is there a metric that you all looked 
for on that, or no?
    Mr. Harris. Well, I'm really involved in counternetwork 
operations, basically to work with the components across DHS--
--
    Chairman Chaffetz. Okay. So you don't have an answer to 
that question.
    Mr. Judd, what percentage of the border is under 
operational control?
    Mr. Judd. According to the agents that I speak with that 
are actually on the frontline that actually work and see what 
we arrest and what gets away, I would say that we would be 
lucky if we're 40 percent.
    Chairman Chaffetz. Mr. Starr, one of the frontline people 
that--some of the frontline people that we rely on, and for 
those Americans who are working at our consulates, and 
certainly at the embassy are the local guards, do you know what 
we're paying those local guards on a monthly basis?
    Mr. Starr. Congressman, I couldn't quote you an exact 
dollar figure. We did go over this with the new contract that 
we're putting in place. I would tell you that it's a 
competitive salary in terms of any other local guards in the 
country, and, in fact, it probably is competitive with the 
police as well. But it is based on Mexican salaries.
    Chairman Chaffetz. And that's the concern, is that we're 
paying these local guards, at least what our staff has been 
told, roughly $316 per month is their monthly salary. And I 
recognize it's Mexico. It's not New York City. Wages are going 
to be different. But does that number sound about right, $316 
per month for a local guard to guard our U.S. facilities?
    Mr. Starr. Yes, sir, that's about the prevailing wage in 
Mexico.
    Chairman Chaffetz. The opportunity for corruption, I think 
you can see, is of great concern. I don't know what the magical 
number is, but Mr. Judd, I was going to ask you about the ratio 
of management and the agents that you need, but I think you've 
addressed that.
    One of the great concerns I have is getting these new 
facilities to secure our American personnel. I'm going to put 
up a slide here. To give a little background in history, we 
were operating under standard embassy design. This is something 
Secretary Powell put into place. But under the Obama 
administration with Secretary Clinton they moved to this design 
excellence.
    And here is the concern. If you go to the second slide, 
Tijuana was built under standard embassy design. Is there 
anything wrong--Ambassador Moser--with the Tijuana facility? Is 
it too ugly for Mexico?
    Mr. Moser. Not to any knowledge, sir. But in fact, it 
really wasn't a standard embassy design, sir. It was a 
derivative. It didn't really do the exact standard embassy 
design.
    Chairman Chaffetz. So we spent about $668,000 per desk but 
it's as close to standard embassy design as we have. But then 
we have these modified design excellence. Monterrey was built, 
it jumped cost at $900,000 per desk. But the two under 
construction, Matamoros and Nuevo Laredo, we're now looking at 
$1.8 million per desk; in Nuevo Laredo at $1.7 million per 
desk. We're talking $191 million to build something in 
Matamoros in Nuevo Laredo at $154 million. How do you explain 
that?
    And by the way, in Matamoros--I'm sorry, Nuevo Laredo, $154 
million, you start doing that math, you know, it's like 88 
desks. How do we afford to do that around the world? Why we 
have such a massive jump in expense? These expenses could go to 
personnel, guard forces. And you all want to take away danger 
pay. So why so much expense on these?
    Mr. Moser. Sir, I acknowledge your concerns, and it is my 
obligation as a career State Department employee to make sure 
that we're doing our best to serve our taxpayers' concerns.
    I will tell you that over time our security standards and 
our building quality has increased in order to adapt to 
actually new circumstances. And it's very hard without a 
detailed analysis that looks at site, where building is 
located, what we're trying to accomplish in each building to 
compare on a desk-by-desk basis.
    Chairman Chaffetz. Well, what other metric would you use?
    Mr. Moser. As I've told you, it takes more of an accounting 
approach where you look at what the inputs are and then gauge 
it to what comes out.
    Chairman Chaffetz. Yeah, well, that's costing tens of 
millions of dollars more and it's taking a longer time. We will 
continue to have hearings about this. It is an outrageous 
amount of money and it's taking longer. No doubt that we need 
new facilities.
    I do need to ask before I yield back about the danger pay. 
I'm not sure which one of the three to ask you about, but I 
guess, Ms. Saarnio, we'll start with you. To what Mr. Cummings 
said, are people working for the State Department in Mexico, is 
there any threat of their wages going down by the loss of 
danger pay?
    Ms. Saarnio. Congressman, thank you for that question. You 
know, I'm glad I get to answer this, because I'm very proud of 
our Foreign Service colleagues who have----
    Chairman Chaffetz. Yeah, I know. We're all proud of them. 
Keep going. What's the answer to this question? Are you going 
to cut their pay?
    Ms. Saarnio. The answer is that our allowances change over 
time as situations change. And yes, we have developed a new 
system by where we're changing danger pay and hardship pay. In 
Mexico we're going--the changes will be some posts will go up 
and some posts will go down. But that reflects, we believe, the 
change in the situation on the ground.
    The danger pay that's been calculated in the past, some of 
the elements of that, the criminal violence and living 
conditions, social isolation that you mentioned, those are also 
accounted for in hardship pay. And so if we look at the net pay 
for our colleagues, for example, our colleagues in Matamoros, 
will be getting a 5 percent increase. Our colleagues in Nuevo 
Laredo and Tijuana will be going down by 5 percent. So we think 
that reflects the accurate situation.
    Chairman Chaffetz. So Nuevo Laredo, there is no mayor that 
has authority over a police force there. We've documented the 
violence. Are you telling me it's more safe now in Nuevo Laredo 
than it has been?
    Ms. Saarnio. By our calculations, it is.
    Chairman Chaffetz. The American Foreign Service Association 
takes great issue with this. You disagree with them, their 
analysis in that?
    Ms. Saarnio. I'm a former board member of the American 
Foreign Services Association.
    Chairman Chaffetz. Yeah. They disagree with this position.
    Ms. Saarnio. Well, I'm not so sure about the specific 
cases.
    Chairman Chaffetz. Well, I'll read you the quote``On the 
basis of conditions of environments which differ substantially 
from conditions of environments in the continental United 
States, it's a recruitment and retention incentive.'' My 
understanding is they disagree with this.
    You're telling me that in northern Mexico, it's less secure 
in Matamoros now and more secure in Nuevo Laredo.
    Ms. Saarnio. So we believe the situation on the ground has 
changed and our allowance is perceived----
    Chairman Chaffetz. In Nuevo Laredo, if you work at the 
consulate, do you know how far you can travel away from the 
consulate as an American?
    Ms. Saarnio. I do. I'm aware of the situation.
    Chairman Chaffetz. Okay. How far can you travel?
    Ms. Saarnio. You don't. You stay close by your home, and 
your social life is very restricted. That's true and that's 
taken into account----
    Chairman Chaffetz. You have about nine square miles that 
you can operate, that you are allowed to go. And you're going 
to decrease their pay?
    Ms. Saarnio. Sir, when Foreign Service officers sign up to 
go to these posts, they recognize the situations may change and 
the allowances may change in the time that they're serving 
there. It's part of the process, and we recognize it when we go 
to these posts.
    Chairman Chaffetz. I'm just telling you, you've got a lot 
of people on this panel that don't understand, given the 
massive amount of violence, the statistics that we just went 
through, particularly with Mr. Judd, the violence that's going 
on there; and you're going to decrease these people's pay. I 
went down there. It was the number one issue.
    My time is well expired. This is not an acceptable 
conclusion to your so-called analysis. I do not agree that it 
is more safe than it has been, and it's an exceptionally 
difficult place to live.
    I now recognize the gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
pick up exactly where the chairman left off. Mrs. Saarnio, how 
often are these reassessments made with regard to pay 
allowances? I see Mr. Starr is jumping up and down. You can 
answer. You may.
    Mr. Starr. Ranking Member Cummings, if I could answer the 
question.
    Mr. Cummings. Please do.
    Mr. Starr. At least once a year we review the allowances at 
all of our posts. The danger pay that the chairman is referring 
to, in August of 2014, we began a review of how we issued 
danger pay. We looked at also our hardship allowances.
    Mr. Cummings. When was that?
    Mr. Starr. In August of 2014.
    Mr. Cummings. Okay.
    Mr. Starr. It's been a continuing review. Our goal is to 
make sure that we have equitable implementation of our 
allowances across our entire world program. The global program 
includes posts that in many cases are much more dangerous than 
Matamoros or Nuevo Laredo.
    Yes, I absolutely admit there are high levels of violence 
in both of those places. But in our analysis, it is very 
different, that the violence there is not directed against the 
consulate or consulate personnel. They can be in the wrong 
place at the wrong time. We have many places in the world where 
we serve where the violence is directed against our people, and 
those are the places where our employees are getting danger 
pay.
    For the types of criminal violence that we see in Mexico, 
that is reflected in their hardship differential, and many of 
them have gotten increases in their hardship differential to 
reflect the criminal violence.
    Mr. Cummings. What do you define hardship as?
    Mr. Starr. Hardship, it looks at many different factors. It 
can look at isolation. It can look at pollution. It can look at 
the medical condition.
    Mr. Cummings. The nine-square-mile limitation would be a 
hardship?
    Mr. Starr. Exactly. Exactly, sir. But I would also tell you 
that these posts in Mexico, our employees can get in a car and 
in 10 or 15 minutes be in the United States and across the 
border and shopping and going to school.
    We have people in places like Chad. We have places, Mali, 
and different places where no such types of outlet exist, and 
in those places they're going to get a higher level of danger 
pay if it exists, and they're going to get higher hardship 
differentials. We're very careful in how we look at this. We 
want to make sure that our people are getting the right 
allowances for the conditions on the ground.
    Mr. Cummings. Did you have something, Mr. Moser? 
Ambassador; I'm sorry.
    Mr. Moser. No.
    Mr. Cummings. I think you'll find, Mr. Starr, that this is 
a bipartisan effort to try to make sure our people are treated 
fairly and that they are paid adequately, but when I thought 
about what Ms. Saarnio said, she said a lot of times when these 
people go into these positions, they know what they're going 
into.
    I mean, I know that sounds simple, but when you're a person 
who really wants to serve your government, yeah, that may very 
well be part of the basis of which, that you know what you're 
going into. I assume that a lot of these people will take these 
positions because it's a part of their job. Am I right, Madam?
    Ms. Saarnio. Yes. I think many of the Foreign Service 
officers are willing and go to these posts knowing the dangers, 
but they also know that these allowances change over time when 
you're at post; and if the situation changes, they could be 
changed while they are serving there or after they leave.
    Mr. Cummings. So Mr. Starr said, you look at them about on 
a yearly basis. If something radical happened and there was a 
major problem, would there be any kind of exception to that 
general rule of one year? Do you follow me?
    Mr. Starr. Congressman, not typically. I would tell you 
that when we have a radical change in a situation, we look at 
the measures that we take. We may implement additional 
security. We may withdraw personnel. We may take family members 
out of a post.
    Typically the allowances are looked at once a year. On an 
exceptional basis, if something really drastic does happen, we 
can look at it; but generally allowances are looked at once a 
year.
    Mr. Cummings. Mr. Starr, in your testimony, going to 
another subject, you referenced a recent visit to some of the 
border consulates in Mexico. Is that right?
    Mr. Starr. Yes, sir, I went early last month.
    Mr. Cummings. Now would you describe for us the situation 
that our American personnel on the ground are experiencing?
    Mr. Starr. I spent a great deal of time talking with our 
employees, both our local employed staff and our Americans. 
They are aware. They know the levels of violence that are going 
on around them. We are not having trouble staffing those posts.
    I also met with OSAC constituents, Americans that are 
working with American companies that are there, and talked with 
them as well. And I think it's very clear in our OSAC travel 
warnings that are out to the American businesses, American 
businessmen, and the consular warnings, we're not pulling any 
punches on the level of danger down in Mexico.
    Mr. Cummings. As a matter of fact, in the Matamoros 
consular district, there was a spike in crime in February. Is 
that right?
    Mr. Starr. Exactly, sir. We looked at that almost daily as 
we can began to see that two cartel or actually sub groups 
within a cartel were beginning to fight it out among each other 
and higher levels of violence. We were plotting every single 
day where the violence was taking place.
    We were looking at the location of our residences, the 
location of where we went shopping, the location of our 
facilities, against where the violence was. We were ready to 
pull the pin and move people out if that violence came into our 
neighborhoods but we look at those things almost daily when 
that level goes up.
    Mr. Cummings. So back then in February, there were six 
times as many incidents as compared to the month before. Is 
that right?
    Mr. Starr. That's approximately right, sir, yes.
    Mr. Cummings. Now, did any of these security incidents 
involve U.S. citizens?
    Mr. Starr. Yes, there were some U.S. citizens, not from the 
consulate that were involved, but yes, there were U.S. citizens 
that were affected.
    Mr. Cummings. And so you talked about how you were 
monitoring the problems, but what else has the State Department 
done or is doing to address that type of increase?
    Mr. Starr. I think that's where the value of the consulates 
is most apparent and the embassy as well. As we monitored the 
violence going up, we could play a role both through our 
consular offices and warning Americans and Americans that were 
working there.
    Through OSAC we put out warnings. Our consul general was 
dealing with the governor of the region and talking with the 
police. The regional security officer was talking with the 
police, and the ambassador and the others in the embassy in 
Mexico City were pointing out that the levels of violence were 
going up and that the government needed to address this quickly 
and effectively. And there soon after that--and I don't want to 
say that this is entirely just at our urging. Clearly the 
government of Mexico understood this as well--they put 
additional forces on the ground to try to stem the violence.
    Mr. Cummings. Now, Mr. Harris, in June of this year, shots 
were fired at the U.S. Customs and Border Protection helicopter 
near Laredo, Texas. The shots appear to have come from the 
Mexican side of the border. Fortunately no one was injured in 
this incident, but it does raise concerns about the safety of 
our Federal law enforcement officers that are protecting the 
border. I understand that in response to Customs and Border 
Patrol, they sent two armored Blackhawk helicopters equipped to 
handle small arms fire to be used in the region. Is that 
correct?
    Mr. Harris. Yes, sir, that's correct.
    Mr. Cummings. And what else has been done to ensure the 
safety of the agents on the ground?
    Mr. Harris. Well, first of all, before I answer the 
question, I'd like to say that the job of a Border Patrol agent 
is very dangerous work. We have had 122 Border Patrol agents 
killed in the line of duty since the Border Patrol was created 
in 1924. And DHS and CBP was created in 2003, and since that 
time we have had 33 officers killed in the line of duty, and 29 
of those were Border Patrol agents.
    So there's no question that being a U.S. Border Patrol 
agent is dangerous work. I think because we deal with a large 
population of economic migrants, but mixed in with those 
individuals are obviously some criminals. So it's important 
that our agents stay on their toes on a routine basis.
    We try and take a look at what we call hot spots, which are 
zones that are known for a high-level of criminal activity and 
make sure that we have sufficient agent resources and equipment 
and the training and tactics in those areas to deal with those 
types of situations.
    Mr. Cummings. Just two last questions. Mr. Harris, can you 
think of anything else Congress can do to help protect these 
brave men and women on our borders?
    Mr. Harris. Well, first of all, we appreciate all the 
support that you all have also given us. I would also like to 
point out on the helicopter shooting incident that Congressman 
Chaffetz responded to that situation, as he had referenced.
    You know, it's just more stay engaged with the border. I 
think there's a lot of misinformation coupled with border 
security efforts. So we welcome any visits by Members of 
Congress to my new office so that you can see and hear what's 
going on on the border firsthand.
    Mr. Cummings. And, Mr. Starr, can you think of anything 
else we can do to help out on that end? And by the way, while 
you're formulating your answer, I just want you to know, Mr. 
Harris, on behalf of all of us, we understand how dangerous the 
job is, and we appreciate everything that you all do to address 
the issues that you have because they are very difficult, and 
we're sorry for the many losses and injuries that you just 
spoke about.
    Mr. Starr?
    Mr. Starr. Congressman, I believe that what we need to 
accept is that the battle to increase security rule of law and 
justice in Mexico is going to be a long-term battle. I think 
that we can see what has happened in Colombia and the types of 
improvements that have been made there, and I think those are 
the types of improvements that we're going to have to help 
Mexico make.
    I think DAS Saarnio could probably talk more effectively 
about this in terms of the programs that we have in place. But 
I think continuing those types of programs that we started in 
Colombia and we're currently running in Mexico to improve the 
judicial system, the training of the police, all those types of 
things are what's ultimately going to make this a safer 
location, safer country.
    Mr. Cummings. Thank you very much.
    Chairman Chaffetz. Before the gentleman yields back, I'll 
point out that there is no police force in Nuevo Laredo. There 
is none. So you can work on training them, but there isn't even 
one. It's run by the drug cartels, and shame on the State 
Department for cutting the people's pay there from the State 
Department.
    That's not the way you're going to build morale and do more 
things. You're given tens of billions of dollars, and you're 
going to cut those poor people's pay. You can talk about 
training the local police force, but there isn't even a local 
police force to train.
    Mr. Cummings. Mr. Chairman, reclaiming by zero time. Mr. 
Starr, would you please answer what Chairman Chaffetz just 
said. I think he makes a good point.
    Mr. Starr. Chairman Chaffetz is correct, to my knowledge, 
that the local police force is actually not functioning there, 
but there are levels of police forces as well. There are police 
from the governors--from that governate, it's like a state type 
of police, and there are Federal police is also there and 
soldiers.
    So I think while Chairman Chaffetz is correct that we have 
great concerns about the fact that the mayor was murdered, that 
the local police have tremendous difficulties, we also work 
with the Federal and state authorities to ensure that other 
types of security services and police are as effective as they 
can.
    Chairman Chaffetz. I would ask unanimous consent to enter 
into the record, this is the United States Department of State, 
Bureau of Diplomatic Security, Mexico 2015 Crime and Safety 
Report Nuevo Laredo into the record. Without objection, so 
ordered.
    Chairman Chaffetz. I now recognize the gentleman from 
Florida, Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman, and thank you for 
holding the hearing.
    First of all, before we get to Mr. Judd, has the situation 
gotten worse? Is the violence just as bad in Mexico as it's 
been? Mr. Starr, what do you say?
    Mr. Starr. The violence in Mexico ebbs and flows, sir.
    Mr. Mica. But right now.
    Mr. Starr. In certain places it's better than it was a year 
or 2 or 3 years ago. In certain places it's certainly worse.
    Mr. Mica. Okay. Ambassador Moser.
    Mr. Moser. I'm not an expert on Mexico but, Congressman 
Mica----
    Mr. Mica. Overall it's not getting much better. Is that 
right?
    Mr. Moser. I think there's ebbs and flows. There are parts 
of Mexico like Ciudad Juarez that are safer now than they were 
before.
    Mr. Mica. But overall it's still a pretty violent country?
    Mr. Starr. Yes.
    Mr. Moser. Yes.
    Mr. Mica. Ms. Saarnio, same thing? Same assessment?
    Ms. Saarnio. Actually, sir, I would say that we are 
cautiously optimistic that we think the situation is somewhat 
better in certain parts of the country, and that's reflected in 
our danger pay changes. We've seen parts of the country that 
were in insurgency status a few years ago that are actually 
quite operating a lot better now. And a lot of that----
    Mr. Mica. And there are places that are worse?
    Ms. Saarnio. That's true there are places that are worse--
--
    Mr. Mica. Thank you.
    Mr. Mica. Mr. Harris?
    Mr. Harris. Similar response. I would say that depends on 
the area. I travel to Mexico on a personal basis and 
professional level. Some areas you travel with security and 
others you don't; but overall dangerous place, no question.
    Mr. Mica. A dangerous place. Well, I read all the 
testimony. Mr. Judd, I think every Member of Congress should 
read yours. I think it's an incredible assessment.
    Also, a little bit historic; I chaired Criminal Justice and 
Drug Policy from 1998 to 2000 and was in Mexico, and we had 
information at that time from the President's office to the 
cops on the street; corruption was prevalent. Unfortunately 
that's pretty much the same situation that we have today, but 
your report details it very well.
    Startling is the number of 2014, you outlined the number of 
convicted criminals, and you cite the increasing number of 
criminal aliens coming across. Now we're better able to detect 
them, but the numbers are astounding. It says to put the figure 
in perspective, in 2014 the Border Patrol apprehended and 
arrested just under 500,000 illegal immigrants. Meaning one in 
every five arrests last year was a criminal alien. Is that 
correct?
    Mr. Judd. From the research that we have done----
    Mr. Mica. So to get arrested, they had to be in and caught. 
Right?
    Mr. Judd. That is correct; yes, sir.
    Mr. Mica. That's absolutely astounding. Simple math, that's 
probably 100,000 criminal aliens entering the United States. 
Basically it's out of control. And then you said that there--
what can the Oversight Committee do to improve it. You said 
there has to be consequences. Right?
    Mr. Judd. Absolutely.
    Mr. Mica. And there aren't consequences. I was stunned to 
find out the fact that Mexico is one of the most important 
illegal immigrant and narcotics transit points in the country. 
How many agents do we have in Phoenix?
    Mr. Judd. We have none.
    Mr. Mica. None. You know, the other thing too is, there has 
to be consequences. How many consulates do we have? I counted 
about nine in Mexico. Is that right? I think we should close 
every one of those consulates immediately. Put the property up 
for sale. I think you have to have some consequences for 
actions. The place is out of control.
    I just read--well, you cited the helicopter shooting at a 
U.S. Helicopter; right, and Chairman Chaffetz had helped on 
that, Mr. Harris. And in your report, I think, Mr. Judd, you 
said they actually shot down a Mexican helicopter the month 
before. Is that correct?
    Mr. Judd. Yes, they did.
    Mr. Mica. And most startling, we heard the chairman, one of 
the missionaries down there shot yesterday, the 43 kids that 
were turned over by local authorities and shot or killed and 
then their bodies burned or destroyed, and this week or so I 
guess ago they just produced sort of a whitewash report on what 
took place.
    And one of the leaders, of Mr. Jimenez Blanco was found 
dead about 2 weeks ago. He was interviewed by CNN just a couple 
of weeks ago and said that last week, Jimenez told CNN--Mexico 
that more than 100 bodies had been found hidden in graves in 
the area since October, decrying a worsening security 
situation.
    So it doesn't sound like it's getting much better. They're 
even killing the people who are trying to do something about 
the injustice and slaughter that's going on in Mexico. Is that 
correct, Mr. Judd?
    Mr. Judd. Yes, it is. And what I find the scariest part of 
all of this border violence is how it's extending now into the 
interior of the United States. We just had a young man shot in 
the back by presumed an illegal alien from the country of El 
Salvador associated with the Mara Salvatrucha gang. We just had 
a U.S. citizen in San Francisco who was just killed. So we're 
not only seeing violence on the border, but this is extending 
into the United States, and that's scary.
    Mr. Mica. And finally, Mr. Chairman, just I read this week, 
I think most of the illegal marijuana is still coming in from 
Mexico. But, congratulations, we just passed this past week, I 
saw the report that our young people, our students, more of 
them are now hooked on marijuana than on cigarettes. 
Congratulations.
    Chairman Chaffetz. I now recognize the gentlewoman from New 
York, Mrs. Maloney, for 5 minutes.
    Mrs. Maloney. Thank you, Mr. Chairman, and all of the 
panelists and Ranking Member, for calling this truly important 
hearing.
    And Mr. Judd hit it right on the head with his comment that 
it's not only on the border now. It is coming into the United 
States. Just this past week a news reporter and her cameraman 
were shot. A police officer putting gas in his car was shot. A 
woman from Illinois was shot. The incidents that you mentioned, 
and as Mr. Starr said, it's going to be a long effort on the 
border. And as my colleague, Mr. Mica, mentioned, it is out of 
control.
    And I would like to point out that a lot of the shooting is 
coming from guns that were manufactured and slipped over the 
border into Mexico. In fact, Mexico has some of the most 
restrictive gun laws in the entire world, yet it's seen a 
tremendous surge in gun-related violence.
    Just yesterday Chairman Cummings shared with me this letter 
that was sent to him from Charge de Affairs of Mexico, 
Alejandro Estivill, and in it he says that the ATF found that 
over 70 percent of the guns recovered in Mexico in 2014 were 
sourced from the United States. Now, that is a shocking 
statistic.
    Seventy percent of the guns came from America. And in it he 
further writes, ``Congress can play a very important role in 
combatting these transborder criminal organizations and the 
flow of illegal firearms by enacting proper legislation,'' I 
ask unanimous permission to put this letter into the record, 
Mr. Cummings, and Mr. Chaffetz.
    Chairman Chaffetz. Without objection, so ordered.
    Mrs. Maloney. And we are trying to do just that. Earlier 
today in a bipartisan way, Ranking Member Cummings and others, 
Member Kelly from Illinois, introduced legislation to make it a 
felony to deal with illegal guns, to be a trafficker. It's not 
even a felony in our country to traffic in illegal guns. I 
would say how dumb can you be? We should pass a bill making it 
a felony tomorrow, today.
    And also the penalties, as we have heard in hearings before 
this committee, on the fast and furious hearings we had from 
law enforcement, they don't even bother to arrest traffickers 
or straw purchasers, those who purchase guns for others that 
are known criminals or drug dealers or gang leaders because 
there's no penalty. It's like a paper penalty, so they don't 
waste their time doing it. And they literally pled with us to 
give them the tools to do the job.
    So today we are introducing this bill in a bipartisan way 
that would increase penalties for straw purchasers and make 
trafficking in illegal guns a felony.
    Now, in Mexico, just to give an example, to make a purchase 
in a gun store, and they only have one gun store in the whole 
country, but to make a purchase they are required by law, and 
their store is operated by the Army, they must pass a 
background check, present identification, pass through a metal 
detector, hand over cell phones, a camera, just to enter the 
building. And once inside, a perspective buyer is 
fingerprinted, photographed, and then permitted to buy a single 
weapon and a box of ammunition; and they're required to take 
that home and put it under lock and key. So they have strong 
gun laws, but the obvious question is where are all these guns 
coming from? And these guns are coming from the United States.
    And, Mr. Harris, in your testimony you said, ``the U.S. 
Mexican border, the primary threats are southbound gun 
smuggling, northern bound drug trafficking, human trafficking, 
illegal immigration, and the violence associated with these 
activities.'' Could you elaborate, please, Mr. Harris, on the 
southbound gun smuggling. How big is it? Can you tell us more 
about this gun smuggling?
    Mr. Harris. Yes, ma'am. I'll answer that question in kind 
of two parts. One is what my role is in southbound weapons 
smuggling at a strategic level. As I had also mentioned in my 
testimony, for the first time ever we have identified across 
the border the top transnational criminal organizations who are 
involved in the full gamut of smuggling activities which are 
listed. I would ask to add southbound bulk cash smuggling to 
that list as well.
    But this to me is a huge accomplishment, never before seen 
in my career. All investigative agencies, whether FBI, DEA, 
ICE, they all have their cases that they work; but for the 
first time ever we have interagency agreement on which top 
criminal organizations we believe represent the highest threat 
to U.S. national security. Some of those organizations are 
involved in southbound weapons smuggling. Our success on 
targeting these organizations before this has pretty much been 
on the domestic side, but this new position gives me the 
capability to target these organizations all the way from the 
origination point to the final destination point. That's one 
part of the----
    Mrs. Maloney. How many guns do you think are being 
trafficked into Mexico each year? Do you have any feel for it?
    Mr. Harris. Well, the second part of my answer will respond 
to that. I'm not an expert at port of entry operations. I'll 
have to defer to my CBP counterpart. However, from my former 
capacity as a Border Patrol chief in Laredo, we routinely 
augment southbound inspections by OFO officers with detailed 
Border Patrol agents. I would say by and large our success in 
targeting southbound weapons smuggling is due to the vigilance 
and capabilities of our agents.
    As I'm sure you know, we do not have the same kind of 
technology going southbound that we have going northbound. Nor 
do we do 100 percent southbound inspections. We do halts and 
surge operations and operations based on intelligence and 
investigative information, but largely the southbound weapons 
seizures are cold hits. It would be helpful to have some 
similar technology going southbound to what we have going 
northbound, a nonintrusive inspection technology, some of the 
backscatters would be very instrumental, and I think that would 
give us a better picture of what kind of weapons are going 
southbound.
    Chairman Chaffetz. I thank the gentleman.
    Mrs. Maloney. My time is expired, but if I could say, Mr. 
Chairman, in one second, obviously part of controlling the 
crime in America and at the border is controlling the sale of 
illegal gun trafficking and straw purchases of illegal guns. 
Thank you.
    Chairman Chaffetz. Thank you. I now recognize the gentleman 
from Texas, Mr. Farenthold, for 5 minutes.
    Mr. Farenthold. Thank you, Mr. Chairman. Before I get 
started, Ms. Maloney points out in her call for more gun laws 
here in the United States, that Mexico has some of the 
strictest gun laws and yet has the high violence. I think that 
just goes to make the point that restrictive gun laws actually 
take guns out of the hands outs of law-abiding citizens and put 
them into the hands of criminals
    Mrs. Maloney. Will the gentleman yield?
    Mr. Farenthold. I don't have much time. If I do at the end, 
I will. I have some points I'd like to make because I used to 
represent the border at Brownsville and joined Mr. Chaffetz in 
June in his visit to Laredo after the helicopter was shot at, 
had the opportunity to visit with some of the Border Patrol 
agents down there.
    Real quickly, while I get started, Mr. Harris, have we 
caught the people who shot at the helicopter, or has the 
Mexican Government caught them.
    Mr. Harris. Well, the FBI is responsible for investigating 
all assaults on Federal agents. They're responsible for that 
investigation. It's my understanding that an individual was 
taken into custody. He was transported to Tampico, where he 
went before a judge, but he's now missing.
    Mr. Farenthold. That's reassuring. One of the things that I 
learned down there in visiting with some of the Border Patrol 
agents and actually spending some time on the border with some 
of the agents, was a level of frustration with some of the 
policies that this government has that makes it difficult to do 
their job. I hear it referred to as catch and release, or a 
policy that if there are only a certain number of illegal 
aliens in a vehicle, the coyote, or human smuggler, is not 
prosecuted and is let go, a frustration with seeing the same 
folks again and again.
    They're caught; they're shooed across the border, counted 
as a deportation, and are back in the United States in a matter 
of hours. In fact, I visited with some of the Sheriffs in the 
district I represent, Sheriff T. Michael O'Connor in Victoria, 
or Frank Osborne, Matagorda County, and Jess Howell of Wharton; 
and they're all very upset and concerned about the Priority 
Enforcement Program, in which case very often the Federal 
Government refuses to take illegal aliens that they apprehend 
for deportation.
    Mr. Judd, I'll start with you. Can you talk a little bit 
about, was my characterization of the frustration of the rank 
and file agents accurate?
    Mr. Judd. I think it was too soft. I think that you could 
have expressed a much greater level of frustration.
    I want to point out that on the northern border, there was 
an arrest made of an illegal alien in the Havre Border Patrol 
sector. We took this individual into custody. We immediately 
released the individual on the street. Within weeks that 
individual went up to I believe it was Great Falls, Montana, 
and raped a 14-year old girl. We had this individual in our 
custody. We had the authority to remove this individual from 
this country, and we didn't do it. And then that individual 
went and raped a 14-year old girl. Her life will never be the 
same.
    Mr. Farenthold. And we see this again and again with the 
tragic murder of Kate Steinle, the shooting of the Border 
Patrol agents in the Rio Grande Valley by a pair of men who had 
been between them deported I think seven times. And there was a 
story in the news, I think it was just in the past couple of 
days, where a convicted burglar from Mexico with a history of 
repeated felony convictions and deportation was caught last 
week. It was the fifth time he crossed the border and had 
actually spent the bulk of the past 30 years in various jails. 
It just seems absolutely critical that we get the border 
secured. No point working on immigration before we get that 
done.
    Mr. Harris, can you talk a little bit about the Priority 
Enforcement Program, the PEP, and have you heard from the 
sheriffs as well about their concern? They catch somebody, an 
illegal alien, and basically have nothing to do with them but 
turn them loose. We just defunded sanctuary cities in this 
country, but with PEP and the Border Patrol not taking aliens 
sheriffs caught, we have basically created a sanctuary country, 
haven't we?
    Mr. Harris. I'll answer that question again in two parts. 
One is, as was noted in my testimony, I've been in the Border 
Patrol for 31 years. I've been in the Border Patrol when we 
made up to 1.6 million apprehensions a year with about 3,000 
agents on duty. Most of those individuals were from the country 
of Mexico, very easy to deal with those individuals. It was a 
revolving door type of a situation, as Mr. Judd had indicated 
earlier. But the border dynamics have changed over my career 
from what it was.
    About 42 percent of everyone we apprehend is from a 
noncontiguous territory, most of those being from Central 
America, and a lot of them being women and children. So it's a 
different kind of a dynamic on how we deal with those 
individuals. And about 33 percent of everybody the Border 
Patrol arrests has to go before some kind of an immigration 
judge or an immigration proceeding. So the Border Patrol does 
not own all of the process, nor am I seeking that ownership, 
but it does not own all of the process that would allow for 
immediate repatriation of those individuals.
    The second part of my response again is what my job is is 
really to target the criminal network from beginning to end. 
That does not necessarily mean that we are targeting criminal 
aliens throughout the United States as part of my job, but I'll 
just give you one example. I think ICE fugitive operations does 
a great job of picking up criminal aliens. And when I stepped 
into this job, they had just done a press event where they had 
arrested about 2,000 criminal aliens throughout the country. No 
question----
    Mr. Farenthold. But your job and your men's job would be 
easier if there were consequences to entering this country 
illegally and folks were deported and they faced consequences 
for multiple offenses? Mr. Judd, Mr. Harris, just a yes or no; 
would that be a better situation, because I'm out of time?
    Mr. Judd. Yes.
    Mr. Farenthold. Are you with us on that one, Mr. Harris.
    Mr. Harris. Excuse me, sir?
    Mr. Farenthold. Do you think it would be better if we had 
some consequences and repatriated folks?
    Mr. Harris. Well, I think every law enforcement officer 
regardless of what the profession is, when they've taken action 
they want to see some sort of a consequence delivered, but a 
little bit more challenging with the population we're dealing 
with.
    Mr. Farenthold. Thank you, and my time is expired. And I 
apologize to the gentlelady from New York in not being able to 
yield to her.
    Chairman Chaffetz. I thank the gentleman. I now recognize 
the gentlewoman from the District of Columbia, Ms. Norton, for 
5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman. This 
discussion about undocumented criminals, violence of course on 
the border, raises the question for me of the role that 
consulates play with respect to security, particularly in 
northern Mexico.
    Now, as I understand it, Mr. Starr, the security agencies, 
the law enforcement agencies, are coordinated or facilitated 
through the consulate. I have in mind Customs and Border 
Protection, Drug Enforcement Agency, Immigration, of course, 
and Customs Enforcement, Marshal Service, is the consulate the 
place where these agencies would be stationed?
    Mr. Starr. Ma'am, I can't say that every single one of 
those agencies is at every single one of the consulates, but 
you are correct that the consulates do serve as a base for 
consular operations and for those types of operations, along 
with the Embassy in Mexico.
    Ms. Norton. Mr. Starr, what I'm trying to get at is, you 
know, the average American if you say what's a consulate for 
would think about visas and tourism and the rest. We're talking 
about violence, undocumented criminals, and the rest; and I'm 
trying to get at what we're doing on the ground in Mexico 
through our consulates and the role they play.
    Now, the United States I think, Mr. Starr, has wisely tried 
to involve itself in reform of the criminal justice system in 
Mexico itself in order to truly get at drug trafficking, gun 
trafficking, organized crime, which of course is always at the 
top of our agenda. And I'd like to ask you in that regard about 
the so-called Merida Initiative, which as I understand it, is 
charged with disrupting criminal organizations, strengthening 
judicial institutions in Mexico, improving stability in the 
surrounding communities.
    Ms. Saarnio, or Mr. Starr, does that sound like what the 
Merida Initiative is about?
    Ms. Saarnio. Yes. Thank you, Representative, for bringing 
that up. I really appreciate you mentioning that because what 
we're talking about is the Merida Initiative. It's our security 
initiative with Mexico. We have been working with Mexico 
extensively since 2008. We have invested about $1.4 billion 
right now in trying to improve the security situation in Mexico 
by working with the Mexican Government at the Federal, state 
and local levels, and we actually have seen areas where we have 
made progress, and we think a lot of that progress is because 
of our presence on the ground.
    If we're working in Ciudad Juarez or in Tijuana or in 
Monterrey, our law enforcement officials, our military 
officials, can work with Mexican counterparts to give them 
advice, to lend assistance when they need it, to provide 
training if possible; and it's because of the funding provided 
by Congress, which we're very grateful for, where we have been 
able to actually make some in-roads and help Mexico establish 
the rule of law and the system that they are seeking.
    Ms. Norton. What impact would closing the consulates have 
on an initiative like the Merida Initiative?
    Ms. Saarnio. I think it would be very tragic not to have 
our colleagues down there in Mexico. They work very well every 
day on a daily basis with our counterparts all over the 
country.
    Ms. Norton. Is the Consulate where they're based?
    Ms. Saarnio. They're based at the embassy primarily, but 
they're also based at several of our consulates, yes. So in 
some of the cases where we have had the most success, it's 
where our officials were working locally with the officials 
locally; so, yes, it would have an impact, and I think it would 
be detrimental to not have it.
    Ms. Norton. What impact has it had so far on security in 
the region?
    Ms. Saarnio. Well, we believe the strong presence of our 
consulates actually helps establish the security. Not only are 
we providing for the security of American officials, American 
citizens who are there, but we also can work with local 
authorities and, as I said, to help them rebuild their 
institutions and help the Mexican Government achieve what it's 
seeking to do.
    Our colleagues are really working all over the country all 
the time with the Mexican Government; and we're trying to help 
them achieve their goals.
    Ms. Norton. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you. I now recognize the gentleman 
from Georgia, Mr. Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman. Mr. Starr, earlier in 
your opening remarks, you said environments such as that in 
Mexico involve constantly shifting threats, require 
comprehensive planning, agile decisionmaking, in depth 
diplomacy. You went on to say, but it's simply not enough to 
improve physical security. We're also training the Foreign 
Service community on how to better respond in these 
environments.
    Since 2008 the State Department has had a plan to build a 
Diplomatic Security training center, and included in that has 
been the curriculum, the infrastructure, and the personnel. But 
the OMB and the GAO have come out with reports on this. And 
during those studies, those studies that the OMB and the GAO 
have come out with, the OMB report has not been released. I 
have seen the OMB report, and my staff has seen the GAO report. 
Both of those reports cite the lack of cooperation by the State 
Department in trying to come up with proposals for this 
facility to be built.
    Can you tell me on a facility that's this important, on a 
facility that's this expensive, why the State Department would 
be uncooperative in addressing this? Can you tell me why FLETC, 
the Federal Law Enforcement Training Center, in Glynco, 
Georgia, was only given 60 days to respond to this? Don't you 
think that they deserve more than 60 days? Don't you think the 
taxpayers of this country deserve to know exactly apples and 
apples what's going to be the best facility? What are we going 
to get the most from our taxpayers' dollars there? Would you 
agree with that?
    Mr. Starr. Yes, sir, I would. I believe that it's clear 
that spending money on something that doesn't meet our 
requirements is not going to be a good investment. In previous 
hearings and in previous discussions with FLETC, they could not 
take our entire program and don't have the facilities that we 
need for the types of weapons that we use at the FLETC 
facility.
    They proposed using the Townsend Bombing Range, which is 
about 60 miles north of FLETC. That is a Marine Corps bombing 
range that is at the moment under consideration from going from 
a nonlive munition bombing range to a live munition bombing 
range----
    Mr. Carter. I understand that, Mr. Starr. If I could.
    Mr. Starr. We believe that the Fort Pickett site is the 
best----
    Mr. Carter. Mr. Starr, let me ask you, Mr. Starr; did you 
make this clear FLETC? Do you think that they had all the 
information? Because when you talk about the curriculum 
requirements for the training center, both in the OMB report 
and the GAO report, ``It says the course information is only in 
the minds of the instructors, and providing it would cause a 
significant delay in Diplomatic Security operation.''
    How can we get a price on the curriculum, how can we get an 
idea, when it's only in the minds of the instructors?
    Mr. Starr. I'm sorry, sir, that's not correct. We have 
extensive records----
    Mr. Carter. This come right out of the report.
    Mr. Starr. We have extensive records. We have provided the 
curriculum. This is not just in the mind of the instructors, 
sir----
    Mr. Carter. Mr. Starr, I have seen the report.
    Mr. Starr. Which report, sir?
    Mr. Carter. The OMB report, which you have denied to be 
released. I found nothing in there sensitive whatsoever.
    There were six comparisons done. FLETC came out on top with 
three of those comparisons. Two of them were even, and one of 
them favored Fort Pickett. Can you tell me why that report's 
not being released?
    Mr. Starr. Sir, the OMB report is a preliminary study.
    Mr. Carter. Why is it not being released?
    Mr. Starr. I don't know, sir. That's an OMB report. I can 
tell you that the GAO report does not reflect that. GAO report 
has been finished. It has not been released yet either. I think 
it is probably wise to wait until that report is released.
    Mr. Carter. Mr. Starr, you would agree this is important. 
Protecting the lives of our Foreign Service members are very 
important. Protecting their lives, and training is very 
important. We all agree with that.
    This is easy. This is easy when we sit here and when we sat 
here a couple months ago and talked about Afghanistan, and 
said, hey, we spent too much money. We should have, could have, 
would have, but what's not easy is to do something about it and 
to learn from it and to have an apples-to-apples comparison. 
You need to go back; you need to compare the two sites, compare 
them fairly. If you're right, then I will be the first one in 
line to support you in that, but I'm telling you, you have not 
done that yet.
    The State Department has made up their mind, they're not 
going to change their mind. It can only be built near 
Washington, D.C. Because after all, everything comes from 
Washington, D.C. That's the only way it can ever work. Mr. 
Starr, this is not right. You need to go back. You need to make 
it apples-to-apples comparisons. If we sit here and we say we 
shouldn't have spent this much money, but we don't learn from 
it, and we don't do something about the future, then we're all 
at fault here.
    Mr. Chairman, I yield the remainder of my time.
    Chairman Chaffetz. I thank the gentleman. I now recognize 
the gentleman from Pennsylvania, Mr. Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman. And I thank all 
the witnesses for coming today. This is an enormously important 
discussion we are having.
    We heard from you, Mr. Harris, and particularly from you, 
Mr. Judd, some really vivid testimony about the level of 
violence that we're seeing connected with the border and the 
level of criminal that we're seeing at the border; but really 
Chairman Chaffetz called this hearing in large measure to talk 
about whether we ought to close those three consulates that he 
discussed.
    And actually my colleague, Mr. Mica, is calling for the 
closure of all nine consulates in Mexico. What I didn't get 
from you, Mr. Harris, or you, Mr. Judd, was the nexus between 
that discussion and the discussion of the level of violence 
that you've been talking about. How does it cut, starting with 
you, Mr. Harris, how would closing these three consulates that 
Chairman Chaffetz is talking about, how would that cut on the 
violent situation there?
    Mr. Harris. Sir, first of all, let me just say I'm not 
familiar with the criteria that was referenced on the office 
and the pay systems and all that. I'll just say that in terms 
of my business, our relationship with Mexico and our ability is 
to protect and promote U.S. Interests is critically important 
to border security. I routinely travel to Mexico, work with the 
State Department and all of the country team in Mexico City, so 
having our people deployed in a way that we can best protect 
and promote the interests of the United States is critically 
important.
    Mr. Cartwright. Mr. Judd?
    Mr. Judd. When I came to testify, I came to testify about 
violence on the border and keeping U.S. Personnel safe.
    As far as Mexican consulates go, I have no idea how to do 
that. All I can tell you is I am an expert in border security 
and what comes across the border and how we can better promote 
operations to effectively secure the border, and that's what 
I'm trying to give testimony on.
    Mr. Cartwright. Okay. So that's kind of a separate 
discussion that you gentlemen are giving us, but I appreciate 
your coming, and those are sobering comments that both of you 
gave us.
    In February of this year, in fact, right at the time of the 
spike of the violence at Matamoros area, I spent some time with 
my dear friend and colleague, Congressman Filemon Vela in 
Texas. In fact, we were right across the border from Matamoros 
at the time in February. I met with individuals from CBP who 
work tirelessly to make sure that our border is secure, most 
notably, and something that almost never gets mentioned, is 
keeping our borders secure from insects that would infiltrate 
our American crops. And I thank you for all the work in that 
regard.
    I witnessed how vitally important our trade relationship is 
with Mexico. The U.S. is Mexico's largest foreign investor. 
More than 18,000 U.S. companies operate in Mexico. My State of 
Pennsylvania exports $3.44 billion worth of goods to Mexico 
every year, so that accounts to 246,400 Pennsylvania jobs, so 
this is a subject of interest to me.
    On my trip I learned about the role of the maquiladoras, 
the factories where Mexican workers assemble products for 
foreign companies. Most are U.S.-owned or subsidiaries and 
employ American managers and engineers, many of whom work in 
the Mexican maquiladoras as managers, middle managers by day, 
and then come back over the border to places like McAllen, 
Texas, where they live.
    Our working relationship with Mexico is enormously 
important to our economic security; and as I witnessed, the 
work of the consulates is vital to that mission. Ms. Saarnio in 
your testimony you recognize the importance of the bilateral 
relationship between the U.S. And Mexico. You stated, ``Two-Way 
trade topped $500 billion in 2014, with 80 percent of that 
crossing the U.S.-Mexico land border.'' Ms. Saarnio, how do 
U.S. consulates facilitate our trade relationship with Mexico?
    Ms. Saarnio. Thank you, Congressman. That's an excellent 
question. Our consulates are very active with the business 
community on the ground in dealing with both security issues, 
but also in promoting the trade and the business that goes back 
and forth. The U.S. and Mexico share this very close North 
American trading relationship, but it's gotten deeper in the 
last 20 years after NAFTA. I have to say that I think our 
consulates, besides providing daily contact with the American 
companies there, they support business documents need to be 
signed. They need to be notarized. They need to help moving 
freight across the border. If something gets stopped because of 
the lack of paperwork or something, they'll work with them to 
help facilitate, and they make that trade more efficient on a 
daily basis.
    Our consulates are very active in working with that, and it 
is my understanding the business community is very supportive 
of an active presence by the consulates in those regions.
    Mr. Cartwright. Thank you, ma'am. I yield back, Mr. 
Chairman.
    Chairman Chaffetz. I thank the gentleman. I now recognize 
the gentleman from Texas, Mr. Hurd, for 5 minutes.
    Mr. Hurd. Thank you, Mr. Chairman. I'd like to thank my 
colleague from Pennsylvania, Mr. Cartwright, in highlighting 
the problem of insects on the border. It's a real problem and 
something we deal with all the time. I represent over 820 miles 
of the border from Eagle Pass, Piedras Negras on the Mexican 
side, to El Paso, Ciudad Juarez, on the Mexican side, with Beto 
O'Rourke, Filemon Vela, and Henry Cuellar. We represent all of 
the Texas border, so this is something that we engage in on a 
weekly basis. And I don't have much time.
    So my first question to you, Mr. Judd--and I'm going to try 
to keep our little tet-a-tet tight. We spent a lot of time here 
discussing the violence on the border and the danger of the 
border and that it's expanding in the interior. I was down the 
border last week in Ojinaga and Presidio, and I know one of the 
challenges I heard a lot was the lack of manpower in some of 
these locations, especially a place like Presidio. Can you tell 
us a little bit about what that means from an operations 
perspective, and if you can keep that answer tight.
    Mr. Judd. Absolutely. Without the manpower on the border, 
we can't properly--we just physically can't secure the border. 
We need men and women on the borders to do that. When you have 
specific areas like Presidio where the living conditions are 
absolutely horrendous, it's literally impossible to keep agents 
in that area, and so we need to do something. It was 
interesting that a couple years ago they took away the 
designation from Presidio.
    Mr. Hurd. You're reading my mind, brother. And so my 
understanding that some of these locations have changed their 
status from hardship posts, and I've seen a disproportionate 
share of agents leave or simply transfer out. Part of the move 
away from hardship designation was an effort to save money. Is 
the Union open to some form of solution that would allow and 
agent to move up in terms of the eligibility or preference for 
the next post if they spend a certain amount of time in a 
hardship posting?
    Mr. Judd. We have been pushing the Agency for that, and 
unfortunately they haven't reciprocated.
    Mr. Hurd. Excellent. And we're going to have some more 
conversations on that. Mr. Starr, Ambassador Moser, I want to 
thank you all and your organizations and your predecessors for 
what you do. I spent 9 years as an undercover officer in the 
CIA. I was in some really dangerous places like Pakistan, 
Afghanistan. I've been in embassies that have been bombed. I've 
been in embassies that have been shot up. I've been in 
embassies where thousands of people have marched on it, and 
because of the work of you all's two organizations, you had 
Mama Hurd's youngest son come home, and so I appreciate that 
and what you do.
    My only real concern is the cost of some of these 
embassies. Texas A&M University built 110,000-seat stadium for 
about $450 million. I think there's some expertise we can rely 
on there. But one of the problems that I actually have, and 
what I appreciate that you all do with the travel advisory in 
Mexico, the advisory in Mexico is the only advisory where you 
all split it up by state. Right? And I think that shows the 
important relationship that we have with Mexico. We can secure 
our border. I know Mr. Judd and his colleagues are working hard 
every single day, and we can facilitate the movement of goods 
and services at the same time. We must. And that's super 
important.
    So Juarez, 2008, the murder capital of the world. 2010, 
half has many murders as Detroit and New Orleans. Ojinaga, 
right, there's less murders in Ojinaga in 2014 than there were 
in Baltimore. So my concern is when we talk about Mexico is a 
big place, 80 percent of the violence is in 20 percent of the 
country. That's about five states. And if you break that down 
into municipalities, it's about 20 municipalities outs of 
hundreds.
    And I get frustrated when we try to talk about Mexico as 
one place, and it's not. And so I'm just looking to work with 
you all on making sure that the travel advisories in some of 
these cities are reflective of the needs on the grounds. And I 
made a comment when I was in Ojinaga. I've been in some pretty 
dangerous places, and Ojinaga is not one of them.
    And I'm looking just for you all's opinions on being able 
to ensure that those travel advisories are reflective of those 
communities, because on the border, it's not two communities. 
It's one community. And the importance of trade and people, 
goods and services going back and forth, is so critical to this 
country. What's good for northern Mexico is good for southern 
United States, and it's good for both countries. And, Mr. 
Starr, your comments, please.
    Mr. Starr. Thank you, Congressman. Specifically to that 
topic, both OSAC and the warnings that we work with from each 
individual consulate and the OSAC country councils and city 
councils that we have, look specifically at the areas.
    The consular warning sheets are countrywide, but there are 
also post-security bulletins that come out from the consulate, 
and I think this is one of the arguments for why we have 
consulates in different places. American citizens can go to 
that Web site for each individual consulate and look at what's 
going on in that immediate area. I recognize that, yes, 
sometimes the consular warning sheets are a rather blunt tool 
because we have I think, Sue, is it over 25 million Americans a 
year visit Mexico, and we do have to give them sort of honest, 
open advice, but we also further break it down for those people 
that are in specific areas, and we try to do that. But I will 
take your concerns back with me.
    Mr. Hurd. Thank you very much. And my last point, and I'm 
already over time--I apologize, Chairman. Ms. Saarnio, please 
communicate to the members of the Foreign Service, and they're 
sometimes overlooked at the difficulty of their job. They're 
doing it in hard places. They're working hard every single day 
to export our soft power around the world, and they do it in 
tough places. I recognize that. I had the honor of serving 
side-by-side with many of those. Thank you for what you do and 
please communicate that back.
    Mr. Chairman, I yield back.
    Chairman Chaffetz. Thank you. I'll now recognize Ms. Kelly 
for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair. Everyone here today would 
agree that the Mexican Government must work to enhance security 
in their country. The violent crime that takes place in some 
places in Mexico, taking into consideration what my colleague 
just said, often resonates across the border here in the United 
States and simply cannot be ignored.
    We know that American firearms often turn up at crime 
scenes in Mexico. In March, the ATF reported that out of 
104,850 guns traced between 2009 and 2014, 70 percent 
originated in the United States. Mr. Harris, I'm sure that 
Customs and Border Patrol encounters many guns at the border. 
Do you agree that the consistent flow of firearms from the U.S. 
Across the border to Mexico is a serious problem?
    Mr. Harris. Yes, ma'am. I had responded to a previous 
question. I think our men and women do a great job on 
southbound inspections. The OFO personnel who are doing 
sometimes random southbound inspections are oftentimes 
augmented by Border Patrol agents detailed over to assist with 
that effort. And the firearms that are seized during southbound 
operations without the aid of intelligence or investigative 
information are largely due to the hard work of the men and 
women.
    However, as I'm sure you know, we do not have the same 
level of technology and inspection capabilities going 
southbound as we have northbound. And I think if we would have 
some similar technology, the backscatters and other 
nonintrusive inspection capabilities to augment the great work 
of the men and women on southbound inspections, it would 
probably help us to do a better job of seizing more weapons 
going into Mexico, which, as you indicate, is a problem.
    Ms. Kelly. Thank you.
    In 2008, the Mexican ambassador to the United States pled 
with the U.S. to do something to help stem the flow of weapons 
into his country, saying, ``Between Texas and Arizona alone, 
you've got 12,000 gun shops along that border with Mexico, and 
a lot of these gun shops provide weapons that feed into 
organized crime in Mexico. So we really need the support of the 
United States.''
    Ms. Saarnio, do you agree with that, American firearms are 
contributing to the violence within Mexico or some parts of 
Mexico?
    Ms. Saarnio. Thank you, Congresswoman. I think the problem 
of violence in Mexico and as it crosses over in the United 
States is a problem that we share with Mexico. We share a 
common border. We share many issues. They're multifaceted 
issues. I think we have to deal with problems on our side of 
the border and the Mexicans have to deal with problems on their 
side of the border, and we do work very closely with them on 
it. But I am sure that if we were to deal with some of these 
issues in our side, they would be appreciated in Mexico.
    Ms. Kelly. This is a tremendous problem because one of the 
principal tactics used by criminals to obtain these weapons is 
straw purchasing. And I know my colleagues have already raised 
this issue, and I'm proud to join Ranking Member Cummings and 
Congresswoman Carolyn Maloney to introduce the bipartisan Gun 
Trafficking Prevention Act of 2015, House Resolution 3455. I 
feel this bill will close this glaring loophole and would help 
with the issue. So thank you.
    And I yield back.
    Chairman Chaffetz. I'd like to make a note here that the--
from Homeland Security Customs and Border Patrol, this is the 
number of seizures of guns on the southwest border in 2015, 60. 
Six zero. That's it.
    If you look at the ATF statistic, some 8,200 traces in a 
category called U.S.-sourced firearms. I want to be careful, 
because U.S. source, under the definition provided by the ATF, 
refers to those firearms that were determined by ATF to be 
manufactured in the United States or legally imported into the 
United States by an FFL, a Federal firearms licensee.
    So legal transportation of it, they may have been used in a 
crime, but if they were manufactured in the United States, they 
would also fall into that statistic. So I think it is a little 
bit high. And if anybody on this panel is concerned about the 
illegal flow of guns, then you've got to look first at what the 
Obama administration did in Fast and Furious.
    And this panel, this Oversight Committee asked for the 
documents from the State Department and from others about the 
operation--or from the Department of Justice, I should say, 
about Fast and Furious. Did the administration work with us in 
an open and candid way? No. Did the administration provide the 
documents to Congress? No. We had to take them to court. In 
fact, that is still pending. Because the Government through the 
Department of Justice knowingly and willingly gave the drug 
cartels nearly 2,000 weapons.
    So we can drag out Mr. Holder and other people in the Obama 
administration, but they gave out nearly 2,000 AK-47s to the 
drug cartels, and we want to look at that. We had to hold the 
attorney general in contempt of Congress. We had to actually go 
to the courts to try to get those documents. We still don't 
have those documents.
    So for people to say, ``Oh, we're worried about the drugs 
or the guns that are going back and forth,'' let's look at what 
our government did in a complicit way to provide the drug 
cartels those weapons. That is an investigation this committee 
will continue. It's still in the courts. And it's one of the 
most outrageous things to happen.
    So I would actually agree with the gentlewoman. But it 
shouldn't start with our government knowingly giving those 
weapons to the drug cartels.
    Thanks everybody for their indulgence.
    I now recognize the gentleman from North Carolina, Mr. 
Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman. Appreciate your 
passion on this issue.
    I want to talk a little bit about--go the direction 
concerning human trafficking and human smuggling, if I could, 
and I want to tie it into the border crossing cards. I have a 
question, what are the risks of these thieves that are able to 
duplicate these cards? Is that possible of the 11,500 that were 
made? Because I have a card here as well, and it's a card that 
I use here in D.C. Sometimes I'll use it to vote. Other times I 
just show it and I'm kind of granted access here. So help me 
understand. Can that be duplicated?
    Mr. Starr. Sir, they have features in them that make it 
very difficult to do a photo substitution or duplicate them.
    I think the other thing that's important to remember on the 
cards that were stolen, that anybody that's actually trying to 
do illegal activity would not want to use one of those cards 
that was stolen because every one of those is registered 
electronically as a stolen card now. So if they go to the 
border and show it, it automatically rings a bell and, you 
know, these people are going to be doubly inspected.
    So we have a high degree of confidence that the cards that 
were stolen, the majority have been recovered. Those that 
haven't been, very difficult to duplicate and likely that the 
cartels or anybody else engaged in illegal business would not 
want to use them.
    Mr. Walker. And the RFID can be turned off remotely. So are 
we under the impression--I mean, is this something that we can 
go on record saying those are 100 percent inoperable? Those 
cards are now rendered completely useless, that they would not 
be used by someone trying to smuggle a human being? Is that 
fair to say?
    Mr. Starr. I would think, sir, that nobody that's in the 
smuggling business is going to try to go legally across a 
border would want to use one of those cards that's entered as 
stolen. And as I say, that would raise the profile. What they 
would really want is to steal a card from a legal user that's 
not been declared stolen that has a similarity on it to the 
person on it. But still, even the biometrics then are not going 
to be the same.
    Mr. Walker. So it's not just something that they could use 
ever as far as an ID card or passing through anything. These 
cards now, once they've been deactivated, so to speak, if 
that's the right terminology, there's no way they can use those 
at any place or any location for whatever purpose?
    Mr. Starr. Sir, I wouldn't go that far. I think, you know, 
along the border where there's active inspection of them, I 
think they'll be detected very quickly. I think people do use 
them for other purposes. But, again, if the photograph doesn't 
match, and they're very hard to do photo substitutions without 
destroying that card, it would be very difficult.
    Mr. Walker. Okay. Mr. Judd, do you have any concern or 
other comments on that?
    Mr. Judd. No. The ports of entry, I don't work at the port 
of entry. I work between the ports of entry. For me, it would 
be very difficult if somebody took a card from, like for 
instance my card. If somebody took my card and I encounter them 
in the interior, there's no way for me to actually run that 
through the checks that Mr. Starr currently----
    Mr. Walker. Fair enough. I'm satisfied with that answer.
    Let me ask you this: In moving forward, have we pretty much 
solidified that this mistake is now moving forward? This won't 
happen again? Is that something we've looked into, as far as 
how this was broken, how this was stolen, how these things got 
lost to begin with?
    Mr. Starr. I visited the transit facility that they went 
out of, sir, talked with the employees there. There had been a 
very hard look at how we were moving those cards. We have made 
some changes in how they're delivered. We are now only--I would 
prefer not to speak about some of the ways that we have gone 
into making some of those changes, sir, but we did look closely 
at it.
    I think our consular sheets are still accurate, that, you 
know, hijacking and carjacking can still be--is very, you know, 
a problem in Mexico and we have to watch out for that. But we 
are taking additional measures to try to ensure that this 
doesn't occur again.
    Mr. Walker. Well, I appreciate you doing--did I hear 
somebody else weigh in? I'm sorry.
    Human trafficking in my State, North Carolina, even that 
far away from the border is now number nine in the country. We 
were able to pass early on training for border security. That 
piece of legislation is now law. This is a very technologically 
advanced, even in our own research here we're showing, even 
some of your reports showing these aren't just ma and pa. These 
have been kind of assimilated into these large international 
organizations, if we want to make sure we're doing everything 
we can to shut that down at the border. Appreciate your help.
    And with that, I yield back. Thank you, Mr. Chairman.
    Chairman Chaffetz. If the gentleman will yield. How many 
border crossing cards are there in circulation? Do you have any 
idea? Millions, right?
    Mr. Starr. Millions, sir. Certainly tens of millions.
    Chairman Chaffetz. So the idea is that Mexican nationals 
can get a border crossing card that is valid for 24 hours--for 
is it 24 hours in the United States? It's a day pass basically.
    Mr. Starr. By State, there are distances that they can go 
within a certain State with them and other limitations on them.
    Chairman Chaffetz. So the idea is that you can basically go 
for the day, go shopping in, say, Nogales and then go back 
across the border. But there are millions of them. There's no 
exit program, correct? Do you have any way--Mr. Judd, are you 
scanning any--how many of the border crossing cards that are 
used daily are scanned in their exit?
    Mr. Judd. That I'm aware of, none.
    Chairman Chaffetz. How many are scanned on the inbound?
    Mr. Judd. All of them.
    Chairman Chaffetz. So we have statistics about how many 
come into the United States and we have zero statistics on how 
many actually leave the United States. What's the consequence 
of being caught in the United States with just a border 
crossing card?
    Mr. Judd. Next to nothing.
    Chairman Chaffetz. So we give out millions of passes, we 
have no exit program, we have no way of verifying, and there's 
no consequence if you do it anyway. And so thousands of them 
get stolen. I'm still worried that they're used many ways as a 
flash pass saying, ``Yeah, I'm here legally. I'm just here for 
the day.'' Even though in some places you can only go 25 miles 
into the United States. In other places, I think it's up to 40 
miles, if I'm not mistaken. But it's not supposed to be your 
free entry into the United States of America, and yet it's just 
inexcusable you have no exit program to be able to scan these 
passes.
    I'll yield back. My apologies.
    Ms. Plaskett, you're now recognized for a very generous 5 
minutes.
    Ms. Plaskett. Very generous, I like that. Thank you, Mr. 
Chairman.
    And good afternoon to all of you.
    I'm sitting here and I know that we're talking about 
consulate construction, but I just came home from the U.S. 
Virgin Islands, which is now, along with Puerto Rico, 
considered the fourth border. And we had a weekend of violence 
that was profound, with a young man being gunned down in a 
daycare parking lot while his wife went to pick up their child; 
100 shots being fired in the early evening in another part of 
the town; and then the following morning in front of a high 
school at 9:00 in the morning, granted it was a Saturday, 
another individual being gunned down.
    And I understand that a lot of this is, one, due to 
economic non-opportunity, failing schools, but also because of 
the guns and drugs that come through borders like my own. And 
when I look at, in 2007, that the U.S. and Mexico began what I 
hear is called the Merida Initiative, which, according to the 
State Department, is an initiative with four general goals: To 
disrupt criminal organizations, strengthen judicial 
institutions, improve border infrastructure and technology, and 
improve stability in the Mexican community.
    I wish that places like Puerto Rico and the U.S. Virgin 
Islands had an initiative with its own government like that. 
But when I see some of the bills that are coming through and 
the lack of appropriations and the lack of support I'm getting 
from many of my colleagues on that, it makes me question if any 
of that's ever going to happen.
    But I know we're here supposed to talk about consulate 
construction and progress in Mexico, and so I've digressed and 
I'll get back on topic to what I was supposed to be talking 
about.
    I was fortunate to go with my colleague, Mr. Chaffetz, to 
Mexico in May because I was interested in seeing how borders 
and consulates operate to stem not just the tide of illegal 
drugs and guns and individuals coming undocumented into this 
country, but also the amount of work and cooperation that's 
done in agriculture as well in places like between Mexico and 
the United States, and the amount of trade and consumer goods 
and commerce that happens in these areas.
    And so we went and we visited the site where the new Mexico 
City Embassy was supposed to be built. And I understand that 
there are a lot of consulates in this area because of the 
amount of commerce and trade along with individuals that go on 
in these areas.
    So I wanted to ask--and I think, Mr. Moser, you would be 
the appropriate person--the three consulates in dangerous areas 
near the border, Tijuana, Juarez, Monterrey, they've all 
recently been completed in 2008, 2011, and 2014 respectively. 
Is that correct?
    Mr. Moser. Yes, that's Ciudad Juarez, Tijuana, and 
Monterrey.
    Ms. Plaskett. Okay. And all of these three consulates meet 
security standards?
    Mr. Moser. Ma'am, I cannot build a building without Mr. 
Starr's explicit approval.
    Ms. Plaskett. So Mr. Starr, did they meet your approval?
    Mr. Starr. Yes, they do.
    Ms. Plaskett. Okay. And there's another consulate that's 
currently under construction that's estimated to be completed 
in 2017. Mr. Starr, is that correct? Is that accurate?
    Mr. Starr. Yes.
    Ms. Plaskett. And then this consulate in Matamoros and the 
Embassy in Mexico City are also supposed to soon be under 
construction?
    Mr. Moser. Yes, ma'am, that's correct.
    Ms. Plaskett. The four remaining consulates are in the site 
acquisition phase for new locations, correct?
    Mr. Moser. That's correct, ma'am.
    Ms. Plaskett. And as for the completion timelines, when we 
travel to Mexico City, they were told that the Matamoros 
consulate was estimated to be completed in 2019 and Mexico City 
Embassy estimated to be finished in 2020. Are those timelines 
still in place?
    Mr. Moser. Yes, ma'am. They do depend somewhat on Mexico 
City's case about when we will receive the clean site.
    Ms. Plaskett. Okay. And as I recall, the clean site was not 
for the entire space. It was for a portion of that embassy?
    Mr. Moser. For a very small portion in the southern corner 
of the site.
    Ms. Plaskett. And do we have an idea when Mexico's--the 
government will give that?
    Mr. Moser. Ma'am, we are working with our seller in order 
to obtain the clean site, and we are working currently on a 
timeline for the delivery of that, and we expect it to be 
sometime in the fall of 2016.
    Ms. Plaskett. Okay. And can you explain how State is 
responding to the delays in that, aside from just working with 
the seller?
    Mr. Moser. If you mean how we're responding, I will say 
this: You know, we looked for 10 years, over a decade, at 20 
different sites in Mexico City to find one that would meet our 
very robust and--by this hearing everyone acknowledges--very 
important diplomatic platform that we have in Mexico City.
    When we finally identified from our seller the Nuevo Blanco 
site, which is a short couple mile distance from our current 
location, we realized that this would actually fulfill all of 
our programmatic needs, from providing an effective platform 
for our law enforcement agencies to our traditional diplomatic 
activities, to even providing space for a Benjamin Franklin 
library, which is very important for our public diplomacy 
outreach.
    Yes, there have been delays in acquiring the site, but we 
still feel that within this timeline that this is sufficient 
for us to build a building from the time we receive the site 
and get it up and operational. And that construction timeline 
is around 50 months.
    Ms. Plaskett. And when I talked with the people on the 
site, primarily--one of the main reasons why this was such a 
great site is because the ability to buy land of that size from 
multiple sellers is almost impossible in Mexico City.
    Mr. Moser. Yes, ma'am, that is correct. Because, you know--
and one of the things I want to note here, you know, it 
would've been--it would've been possible, of course, to find a 
greenfield site if we wanted to be well outside of Mexico City.
    But to the extent that we need to engage with our 
colleagues in the Mexican Government and in businesses, we need 
to be in an urban location that really mirrors our present 
diplomatic platform.
    Ms. Plaskett. Okay. Thank you so much. I've exhausted my 
gracious and generous time.
    And thank you, Mr. Chair, for your generosity.
    Chairman Chaffetz. Thank you.
    I now recognize the gentleman from Georgia, Mr. Hice, for 5 
minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Let me begin, Mr. Judd, with you. Is it your 
understanding--okay. I know that you said you don't work at the 
ports of entry. But is it your understanding that the BCC cards 
can be used by individuals illegally to get into the country?
    Mr. Judd. The BCC cards, if somebody is not properly 
looking and inspecting who the person is, for instance if you 
come through the port of entry and you present your card and 
they don't look at you and they just swipe it and it's a good 
card and they pass you through, absolutely they can do that.
    But the cards really are, as Mr. Starr said, they're very 
good cards. They're very difficult to duplicate. But if you 
have somebody else's cards and they don't properly inspect you, 
you could get into the United States.
    Mr. Hice. Okay. Is there any evidence, Mr. Starr, that that 
has ever happened?
    Mr. Starr. Not to my knowledge yet, sir, no.
    Mr. Hice. All right. So you would say that no one has ever 
entered this country with a stolen card?
    Mr. Starr. Sir, that would be very hard to say absolutely. 
I would say that----
    Mr. Hice. Yes, it would.
    Mr. Starr. --it would be very difficult.
    Mr. Hice. It would be very difficult. Because from what I 
understand that has happened and there are times inspectors 
don't check the cards properly so there certainly are occasions 
where, as the chairman brought up earlier, they're used as 
flash cards.
    How often does an individual just flash the card and 
they're waived on into the country?
    Mr. Starr. Sir, I can only tell you, I spent about 3 hours 
at the San Ysidro border crossing with the Homeland Security 
personnel that were there. I saw an incredibly dedicated group 
of people with very many duplicative stops where they're 
checking the people, they check the cars. I can't tell you, 
because it's out of--I'm with the State Department, but I have 
to tell you I was exceptionally impressed with how good they 
were.
    Mr. Hice. Did they know you were there?
    Mr. Starr. Yes, they did.
    Mr. Hice. Okay. That probably has something to do with it.
    Is it true that the CBP was only able to read the cards, 
the RFID cards about two-thirds of the time?
    Mr. Starr. I'm sorry, sir. I don't know the answer to that.
    Mr. Hice. It's my understanding that the cards don't always 
work properly. And so my question, ultimately, is coming to if 
the cards don't always work properly then the stolen cards 
could still be used.
    Mr. Harris, you're nodding your head.
    Mr. Harris. Well, I didn't notice I was doing that, but----
    Mr. Hice. Okay. It appeared to be you were.
    Mr. Harris. --it was an accident, I guess.
    I'm not a port-of-entry expert but, again, I'll defer to my 
area of responsibility in what I'm focused on, which is 
targeting the criminal network. I will tell you, through 
investigative means I won't talk about here, we're getting much 
better at identifying and rooting out those individuals who are 
using the border crossing cards for criminal purposes.
    We've identified, as a starting point in South Texas, a 
little bit less than 1,000 individuals. Probably about half of 
those are border crossers. And we're systemically removing the 
cards from those individuals when they cross the border. So I 
think with the technology that you all have supported us with, 
we're much better at being able to identify the people who are 
using the cards for illicit purposes versus for legitimate 
reasons.
    Mr. Hice. Okay. So none of you have any awareness of the 
RFID cards not working?
    Mr. Starr. No, sir, I'm not aware that they're not working. 
I think we have a very high degree of confidence in the card 
and a very high success rate with that card.
    Mr. Hice. Okay. Mr. Starr, do you have any idea how many--
or any of you, for that matter--how many U.S. citizens have 
disappeared, have been kidnapped, abducted?
    Mr. Starr. I don't have the figures in front of me, sir, 
no.
    Mr. Hice. Who would have those figures?
    Ms. Saarnio. Sir, I have some figures from last year and 
this year. If we're talking about U.S. citizens----
    Mr. Hice. Correct.
    Ms. Saarnio. --we believe from the reports that we have 
that in 2014 we had a total case of 146 kidnappings reported, 
U.S. citizens. And in this year through September 8, we have 
had 64 cases reported.
    Mr. Hice. All right. What about other crimes from 
disappearances to abductions?
    Ms. Saarnio. Other crimes are also down. In terms of 
violent crimes, we look at murder cases. Last year we had--
there were about 100 murder cases reported of homicides 
involving American citizens. This year we're counting 89 so far 
to date.
    Mr. Hice. Okay. Is there any evidence of Americans being 
targeted?
    Ms. Saarnio. Not to my knowledge, no.
    Mr. Hice. Okay. Thank you, Mr. Chairman. I know my time is 
up.
    I would just like to add that I have put forth--Mr. Judd 
mentioned a while ago about the horrible crime committed in 
Montana after a person was in your hands, and I put forth a 
bill, TRAC, which stands for Tracking Re-offending Alien 
Criminals, specifically the sex offenders. I would urge my 
colleagues to check that out, H.R. 2793, and cosponsor.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    And we don't have the--necessarily the proper panelists to 
deal with this part of it, but to lead on, to follow up with 
what you said, one of the most infuriating parts of this are 
the people who are here illegally and commit crimes only to be 
released back into the interior of the United States of 
America.
    For fiscal year 2013 and 2014, the Obama administration 
released roughly 66,000 criminal aliens. According to 
enforcement and removal operations, there are 925,000 people 
with final orders to be removed from the country who have not--
that they haven't been removed.
    You know, there are people that are here illegally, and 
then there are people that are here illegally and they 
committed a crime. And to not focus on those people and make 
sure that they leave the country--and then when they do, to 
find that a huge percentage of them have to get picked up 
coming back across the border, I mean, how do you look people 
in the eye and say 925,000 people are here illegally or ordered 
to leave the country and they did not.
    And then you add on top of that the number of other 
criminals, they're in our possession. We have them. They were 
caught. They were convicted. And we said, ``Go ahead. You're 
released.'' And we have horrific stories in just about every 
single State you can think about. And it's just horrendous.
    We're now pleased to recognize Mr. Cuellar who lives in 
Texas. He's very dedicated on this issue. We appreciate him and 
glad to waive him in by unanimous consent. We'll now recognize 
him for 5 minutes.
    Mr. Cuellar. Mr. Chairman, thank you again for allowing me 
to be back in my former committee. Thank you and thank the 
ranking member also.
    I want to thank the witnesses from the State Department. 
Thank you for the good job that you do. I know it's a difficult 
job, but we appreciate it.
    My good friend Robert Harris, who used to live in Laredo, 
moved to the northern part of my district of San Antonio. It's 
always a good pleasure to see you and all the good work you did 
down there.
    Mr. Judd, all your men and women that work for Border 
Patrol--I mean that work along with you and with Robert and all 
that, they do a good job. You know, I think anybody on the 
border--as you know, my brother is Border Patrol--I mean, well, 
border sheriff should I say down there in the border. So he and 
I, you know, we've lived there all my life. Like I said, I 
drink the water. I breathe the air down there. My family lives 
there. I go back every weekend back to the border. So I do want 
to say thank you for all the work that you all do.
    Again, Mr. Chairman, I do know there's a couple issues, and 
I think there's some things that I would like to work with you, 
as we talked a while ago. I want to talk about danger pay. I 
think on danger pay, for the folks at the State Department, I 
think we need to talk about it. I think that's something that I 
think Congress will probably be involved in this issue.
    My understanding is you already let some of your employees 
know--you haven't let us know, but I can tell you that Congress 
will probably have a say so on this. Not that we want to 
micromanage, but I think it's part of--at least the 
appropriations process will be involved.
    The issue of cost of construction--and I understand--I've 
been to the one in Mexico. I understand what they're doing over 
in Laredo and other parts of the world. I think the cost of 
construction is extremely high. Sometimes people, I think, they 
charge us just because we're the Federal Government, they 
charge us more. I understand all the arguments about security 
and you've got to do this. I understand all that, but I still 
think they're a little high.
    On the issues of closing the consulate, Mr. Chairman, I 
think we definitely disagree on that. I don't think we ought to 
close the consulates. Let me just try to address, Mr. Chairman, 
if you allow me just a few minutes beyond my 5 minutes, since I 
think everybody's gone now except you and I. Let me talk about 
the border. I want to go from the border and then go into 
Mexico.
    If you look at the FBI statistics, the border crime rate or 
the national crime rate is about 4.5 murders per 100,000. 
Laredo, my hometown, is about 1.5 murders per 100,000. You take 
the border crime rate, it's lower than the national crime rate 
using FBI stats, murder, assaults, rapes, you know, name them.
    If you look at the top ten cities with the highest murder 
rates in the U.S. for 100,000 population, none of them are on 
the border. None of them are on the border. If you look at one 
of the NGOs that looked at the top 50 cities with the highest 
homicides per 100,000, and if you look at it, you know, you 
have San Pedro Sula--this is from the year 2011 to 2014--number 
one is in Honduras, San Pedro Sula, Honduras. You had Acapulco, 
number three, 104 murders for 100,000. The number one was about 
171 murders per 100,000.
    Then you go on--sorry if there's anybody--any of my 
colleagues--San Luis was number 19. And then you had Detroit, 
number 22. Then you had Juarez, who the numbers I've gone down 
was number 27. Then you had the Nuevo Laredo, number 34. Then 
you had Baltimore number 40, and then go all the way down to 
Cuernavaca in Mexico on that.
    So, again, I would ask you to look at some of these numbers 
because there's always the reality and the perception. And 
being on the border, I'll be the first one to say, Mr. 
Chairman, you know, there are problems like any other city, but 
it's not the way some people paint it to be.
    Travel warnings, again, if we go based on travel warnings 
that I--we pulled out the travel warnings that the State 
Department has. Yes, I do see Mexico here, but I do see so many 
other countries where there's travel warnings. And if we go on 
the basis of travel warning, Mr. Chairman, I think we probably 
have to close consulates.
    And there's two and-a-half pages of countries that we 
probably have to include, including one of the ones that we're 
dealing with this week or maybe I just saw a note that we might 
postpone the Israel issue. Even the West Bank and Gaza, there's 
a travel warning there on that. So I can go on two and-a-half 
pages of countries if we happen to go on that.
    Why do we need consulates on that even in places like 
Mexico? Two reasons: One is the trade and the relations that we 
have, but the other one has to do with immigration itself 
first.
    Before I go on that, let me just talk about Mexico. Before 
we did plan Merida, and in 2008 we worked with Ambassador 
Garza, President Bush, Roberta Jacobson, which I'm hoping will 
become--will soon be the Ambassador of Mexico. Mr. Chairman, 
she's a good lady to know. I think you might know her. She'll 
be a great Ambassador to Mexico.
    We were giving Mexico $36 million a year, while we give 
certain countries like Israel $3.1 billion a year. And here is 
Mexico, which is one of our greatest trading partners. Mr. 
Chairman, I think you highlighted some of the numbers. But let 
me talk about Laredo where you and Blake--and I'm sorry I 
couldn't be there. I was bringing my little girl up to 
Washington the day you were up here.
    But Laredo, for example, handles about 40 percent of all 
the trade between the U.S. and Mexico. Twelve thousand trailers 
a day that we have there. If you put the trucks, line them up, 
up and down the border, on the day basis, all the trucks Laredo 
on 1 day would go from Laredo to a little bit south of San 
Antonio. You put all the trucks on a monthly basis going 
through just Laredo, it will go from Laredo all the way to La 
Paz, Bolivia.
    And if you go on the number of trucks that pass Laredo on a 
year, they almost will wrap around the world twice. So it gives 
you the half trillion dollars that we have of trade every day. 
Shows you why Mexico is so important to us.
    And by the way, one more for the folks that want to push 
Mexico away, if an end port comes in from China, it has about a 
4 percent American parts on it. If something comes in from 
Canada, our number one trading partner, will have about 25 
percent parts. But if something comes in from Mexico, an import 
comes in from Mexico, it will have 40 percent American parts 
with it. So that shows the connection that we have with Mexico.
    Trade. Let me go into immigration, part of it. Robert, you 
and I spoke a lot--Mr. Harris, we spoke a lot about the 
unaccompanied kids that came in last year on that. We've seen 
the numbers gone down, Mr. Chairman. They've gone down. They're 
about half. But, again, we can add more Border Patrol--and I 
agree adding more Border Patrol. I want to see more men and 
women in blue, which are the customs officers. But if you look 
at something that has happened, I've always said that we can't 
play defense on the 1 yard line, which is called the U.S. 
border.
    We spend about $18 billion for border security across the 
Nation. If we just play a little different defense on the 20-
yard line--and last year the appropriations, we added--I think 
we worked with you all--we added about $80 million to help 
Mexico secure the southern border with Guatemala.
    We always talk about southern border, but we ought to look 
at the southern border with Mexico. If you look at it, from 
October 2014 to April 2015, Mexico apprehended over 92,000 
Central American migrants, 20,000 more than we do in the U.S., 
70,000. So if we would have--if Mexico would allow those 
92,000, Border Patrol would have been dealing with those folks 
a lot more.
    So Mr. Chairman, I do understand that we have issues in 
Mexico. There's no ifs. But we need to work with them. 
Construction costs, I agree; I think they're a little high. We 
can work on that. Closing the consulates, bad mistake. Danger 
pay, Mr. Chairman, I want to work with you because I think we 
need to talk about. There are certain parts of Mexico where I 
think they deserve danger pay.
    So, Mr. Chairman, thank you so much for allowing me to be 
back in my former committee.
    And to all the witnesses, thank you so much for all of--for 
all the good work that you do.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    I'll now recognize the gentleman from Wisconsin for 5 
minutes.
    Mr. Grothman. Okay. I've been in another hearing so I hope 
I don't repeat some questions.
    First of all, I want to point out that overall, you know, 
we're kind of highlighting Mexico here. And just reviewing the 
murder rates around the country, Mexico was far from the most 
violent country in the world, right? I mean, you have countries 
like Jamaica or El Salvador that are maybe twice the murder 
rate or Honduras which is four times the murder rate of Mexico.
    But Mexico does have a high murder rate. I think it's about 
four times--over four times the American rate. Five times--I 
say four times the American rate. I wonder if some of you could 
maybe comment on the differences in some cities compared to 
other cities and whether you think it is right now particularly 
dangerous in these cities with the higher rates themselves.
    Mr. Starr. Sir, I think the Embassy in Mexico City and the 
different types of agencies that are represented there closely 
follow where we have rising narcotrafficking drug violence. And 
I think that's what fuels a lot of the murder rates.
    As we said earlier, you know, 25 million Americans visit 
Mexico every single year. Very few of those people have any 
type of problem there. You know, tourism is a very big 
business. We're acutely aware that certain places where the 
drug cartels, either one is trying to take over another or 
there's a split in the organization, and that's what happened 
in Matamoros over the last year essentially, the violence can 
certainly spike.
    I think we do try to differentiate between those places 
where the violence is going up and make sure that that's 
reflected in our warnings and tell people that. I think we try 
to be accurate about what the real threats are to Americans 
there and give them the general idea. But it is not a level of 
violence that is all over Mexico. It is in different cities and 
primarily where the drug traffickers are contesting territory.
    Mr. Grothman. Do we have a facility in Acapulco?
    Mr. Starr. We have a consular agency there, right? Not a 
consulate. We have a consular agent there.
    Mr. Grothman. That's an example of one, just pulling it up, 
that looks to be a very, very dangerous city. But could you let 
me know, I mean, is that like some American cities where 
overall it's dangerous but there are a lot of areas that are 
okay? I mean, because that is one, just pulling it up, that is 
just, you know, I think the murder rate is like three times 
that in Milwaukee where I'm near, and that's not a very well 
run city.
    But you do feel that--I mean, do you feel our people are 
safe in a city like that? If you stick in the right areas, or 
is it----
    Ms. Saarnio. Sir, we provide guidance in our travel 
advisories by state and even by city, and there is specific 
guidance for Acapulco. I'm not sure over there what it is right 
now. Typically, we advise people, you know, stay off the 
streets at night in these dangerous places. Stay closer to 
home. If we know of a particular type of violence that's going 
to occur, we'll issue a warning.
    So I think, you know--we think it's manageable, but we do 
have to monitor the situations, and we have to monitor the risk 
and take measures to mitigate against those risks when they 
happen.
    Mr. Grothman. Just by point of reference, of all the 
Americans working in Mexico right now who work for the American 
Government, how many work there overall and how many have been 
victims, say, of some sort of crime in the last year?
    Ms. Saarnio. We have 2,800 employees, that includes our 
locally-engaged staff as well, and the mission in Mexico. I 
don't have a number for how many have been involved in crimes, 
but it's minimal. I don't know that we have those at hand right 
now.
    Mr. Starr. I think since 2010, we've had two Americans that 
were killed.
    Ms. Saarnio. Since 1985.
    Mr. Starr. Right.
    Mr. Grothman. Since 1985----
    Ms. Saarnio. Two Americans have been killed.
    Mr. Grothman. Since when?
    Ms. Saarnio. Since 1985.
    Mr. Grothman. Okay. So two Americans have been killed out 
of a little under 3--when we have 3,000 employees. We've had 
about two murders in the last 30 years is what you're saying?
    Ms. Saarnio. That's right.
    Mr. Grothman. Okay. Thank you.
    I yield the rest of my time.
    Chairman Chaffetz. Thank the gentleman.
    Few kind of tie-up questions and then we'll be done here.
    Ambassador Moser, in Mexico City, the last number we had is 
that we were planning in the new embassy--and I recognize that 
it's behind schedule--we were planning on 1,335 desks. The 
costs had gone from the original estimate of $577 million to 
$943 million. Any adjustments in those, or are those still the 
numbers that you're working with?
    Mr. Moser. Sir, those are correct, but I will note that the 
original figure, the $550 million figure that we initially 
reported to Congress did not include the site acquisition cost. 
And that's the reason. So the real difference is about 700 
versus 900, and that does reflect the 40 percent growth in 
staffing.
    Chairman Chaffetz. And it's real dollars. You know, every 
time we spend dollars here we're pulling money out of American 
people's pockets to give it to somebody else. And so the 
concern is you have a $200 million growth there. You were 
looking at roughly just shy of $250 million for the building, 
the construction of Matamoros and the Nuevo Laredo facilities. 
That's a huge amount of dollars going out the door, when you 
consider that Matamoros is looking at 103 desks and Nuevo 
Laredo is 88 desks. And we're going to spend a quarter of a 
billion dollars.
    Mr. Moser. Sir, if I could just make one comment on that.
    Chairman Chaffetz. Sure.
    Mr. Moser. I too am very, very concerned about the cost of 
these facilities, and we are always focused on the cost. But it 
is true that it does take more money per capita or per desk to 
build a smaller facility than it does a large one. Because as 
I've said, the first point of all of this is your requirements. 
What do you have to do. And it's easier to expand a building 
and make it bigger to get a per-desk charge than it is.
    Chairman Chaffetz. In Monterrey--well, let me jump in here. 
Same country, right. In Monterrey, $179 million for 199 desks, 
but Matamoros, which is 103 desks, is $191 million.
    Mr. Moser. Well, as I said, it depends on the requirements 
for the various locations. And a smaller number of----
    Chairman Chaffetz. Do you make any situation where the cost 
has gone down?
    Mr. Moser. Yes, sir.
    Chairman Chaffetz. Okay. What is it?
    Mr. Moser. Well, there are places where it's surprisingly 
inexpensive in----
    Chairman Chaffetz. Yeah, but where is the place where the 
cost estimate went down, came in under budget or even on 
budget?
    Mr. Moser. I'll have to get back to you.
    Chairman Chaffetz. Yeah, exactly. Because we looked at 
this. The reason that we are going to continue to focus on this 
is every single thing we've done since the time I was elected, 
since the President took place--took office, the same time, 
every one of these facilities has gone up in costs. Every one 
of them. And they're not even close. We didn't come up with 
those estimates. The State Department came up with those 
statements. And now we're seeing this double-digits percentage 
growth by the billions of dollars. I mean, by the billions.
    Let me keep going because we are trying to wrap this up. In 
Nuevo Laredo, when I went and visited the site, beautiful site, 
I can understand the location, the proximity to Laredo, Texas, 
I get it. And I do believe that they need a new facility. The 
one they're in currently is old. I understand that. But on that 
site there were living quarters that were a potential living 
quarters for the consulate general.
    The recommendation for the people on the ground who are 
working there was to keep that facility. And yet, OBO said, 
``No, we're not going to keep that facility,'' and they 
destroyed it. I have questions on follow-up as to why was it 
destroyed? Why didn't it meet the specifications? And number 
two is, have you figured out and determined where the consulate 
general is actually going to live in Nuevo Laredo?
    Mr. Moser. Sir, there's a very good line of inquiry. And 
let me explain that. That in that particular instance, we had a 
smallish site, somewhere around a little--I think a little bit 
less than 5 acres. And in order for us to situate our building 
on the site and have all of the required setbacks and all the 
required security requirements that we would have to have, 
according to our overseas security standards, that we had to 
demolish the existing residence on the site.
    Now, where will that person go? We will obtain appropriate 
housing for the principal officer, and that's what we do in 
countries all over the world.
    Chairman Chaffetz. Here's the concern: The cost has grown; 
it's under construction; the site has been--but this is a 
pretty--there are only 88 desks, okay. It's a smaller facility. 
The consulate general and his facilities and his ability or her 
ability to conduct work on behalf of the United States is 
pivotal. And here we are, you know, into September 2015, and 
you all haven't figured out where he's going to live. It's a 
pretty big, important question.
    So----
    Mr. Moser. Well, he does have a residence now, sir.
    Chairman Chaffetz. Yes, understood, on the old compound. 
But you have to travel, as I did, we had something like 30 
armed guards escort us from the one facility to the next 
facility. You had to have the Mexican National Army lead us in 
a convoy with, you know, some rather large guns and whatnot 
ready to go at any moment. It's a very dangerous situation.
    So I just don't understand why we're this far into it. 
Because there's going to be a cost. And so when we look at $154 
million, that doesn't include the site acquisition or 
development or purchase of something for the consulate general, 
does it?
    Mr. Moser. No, sir, it doesn't.
    Chairman Chaffetz. Have you informed Congress that this 
number is shy of what it needs to be?
    Mr. Moser. Sir, we usually find principal officers or fund 
principal officers' residence out of our leasehold account, 
which is also appropriation from Congress. And we do have a 
dialogue with our appropriators about how much these individual 
residences cost.
    Chairman Chaffetz. Okay. It's amazing that you get down 
there and see that there's no plan and no--other than, ``Hey, 
we're going to continue to look at it.'' To suggest that they 
took 10 years to try to find a facility to locate the Mexico 
City Embassy. I mean, that's an embarrassment. Ten years?
    Mr. Moser. Sir, to find a big enough site where we can put 
a facility that really accomplishes the diplomatic goals, we 
are trying to----
    Chairman Chaffetz. You bought a site that's toxic. And by 
the Mexican Government it's so toxic you can't build there. And 
there are hundreds of people that are going to suffer and live 
in inadequate working quarters.
    Again, I want to try to wrap up here. When will the new 
danger pay--when will this new program be implemented? Has it 
been announced?
    Mr. Moser. It has been announced, sir, but I'll turn that 
over to my colleagues.
    Chairman Chaffetz. When does that take place?
    Mr. Starr. The announcements went out to the post, I 
believe, last week.
    Congressman, I appreciate how much you're concerned about 
the danger pay. I can have staff come up here and work with 
your staff and explain how we do this and how we grade these 
things, if that would be helpful.
    Chairman Chaffetz. We'll try it again. You and I tried it 
in a classified setting, and it didn't go so well, did it?
    Mr. Starr. No, sir, we had our differences.
    Chairman Chaffetz. Yeah. And so this is not a new topic 
that I sprung on you here at this--you knew I was going to 
bring it up.
    Mr. Starr. I know that, sir. But I think if we could show 
you detailed how we actually look at each post, what the 
ratings are, what we do to go into it, and I think my staff 
working with your staff could give you----
    Chairman Chaffetz. I look forward to seeing that formula. 
For those men and women who work in Mexico, who have loved ones 
that are here in the United States and their husband or wife or 
sibling or whoever, daughter, whatever is working in Mexico, 
and their pay just got cut, you can look at the Obama 
administration, you could look at Secretary Kerry, and you 
could look to that organization, because it wasn't us 
Republicans. Don't tell us that it was--you were tight on 
budgets.
    Mr. Starr. This was not about cutting any benefits.
    Chairman Chaffetz. They did get their--are you telling me 
that----
    Mr. Starr. Matamoros went up. Matamoros went up.
    Chairman Chaffetz. Are there people working in Mexico who 
earn less than they did before?
    Mr. Starr. Yes, some.
    Chairman Chaffetz. That's my problem.
    Mr. Starr. But it's based on the conditions on the ground, 
sir.
    Chairman Chaffetz. Yeah. Can they still--in Nuevo Laredo 
can they walk outside of the consulate? No, they can't.
    Mr. Starr. No. They can be across the border and be in a 
Wal-Mart and be in a Dairy Queen very quickly.
    Chairman Chaffetz. Really?
    Mr. Starr. Yes, sir.
    Chairman Chaffetz. Yeah, I can't wait to play that video 
for those people working there. Shame on you for----
    Mr. Starr. Sir, I've walked that ground. I've talked with 
those people. I look at our security every single day. There is 
nobody that is more concerned with the security of our people 
overseas than I am. Their allowances----
    Chairman Chaffetz. I don't agree with you.
    Mr. Starr. I'm sorry, sir.
    Chairman Chaffetz. I have been there. I have talked to 
those people.
    Mr. Starr. Sir, I start every morning----
    Chairman Chaffetz. Don't tell me that--don't get on your 
high horse, because you just cut their pay. I didn't do that; 
you did.
    Mr. Starr. Sir----
    Chairman Chaffetz. And when I went down there, I didn't 
know that this was an issue. They brought it up.
    Mr. Starr. Sir----
    Chairman Chaffetz. And we sat them down in the room, and to 
think if it's fair. It's not safe. When I talk to the people 
who were there working in that facility, it's so dangerous they 
can't go outside.
    Mr. Starr. I start every single day looking at the threats 
to our people worldwide.
    Chairman Chaffetz. And you're getting Mexico wrong. You're 
getting Mexico wrong.
    Mr. Starr. No, sir, I'm not. And I'll bring staff up and 
we'll work with your staff.
    Chairman Chaffetz. Yeah, you can bring staff up all you 
want. I can tell you, I have been there. I have looked at those 
statistics. I have briefed with the people there. You cut their 
pay, and I think it's wrong. And I think people on both sides 
of this aisle think it's wrong.
    It was petty. It was not useful. It was not productive. 
It's cut morale. It was unnecessary, and I think it should be 
changed. I really do. I really do. It's not for a lack of 
appropriation. It's the management of the State Department. 
That's the question here. That's the question.
    We're going to continue to work on that. There are a lot of 
other issues. I do believe we have to engage in meaningful 
immigration reform. There has to be a legal, lawful way to get 
here. If you don't fix legal immigration, you're never, ever 
going to solve this problem. One of the issues we need to work 
on is the asylum reform. I actually have an asylum reform bill.
    In conclusion, I cannot thank the men and women of the--
particularly the Border Patrol for all they do and the good, 
hard work that they do. I have been down there. It's one of my 
joys to go out with them in the Ajo district. I've been out 
there with them as we chase people coming across the border. 
You sit there and just watch them all day long coming across, 
and these people apprehend them in a very professional manner. 
They work hard. It's hard, very dangerous work. Can't thank 
them enough for the good work that the people do in the Customs 
and Border Patrol.
    ERO has an exceptionally difficult mission. ICE is doing 
some very important work. There are good people doing work all 
across the border.
    And my point, sir, is with those people working in the 
State Department, they too have a vital mission. And it's just 
unacceptable to us. It's just mind-boggling that there would 
knowingly and willingly cut their pay, telling them that it's 
more safe when there are conditions there that are not 
conducive. To say that, oh, they can just go across the border 
so they can get to a Dairy Queen, yeah, that doesn't cut it. 
That's not acceptable.
    With that, I appreciate all of you for participating today. 
I think this was a good hearing. This hearing stands adjourned.
    [Whereupon, at 12:49 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               



                                 [all]
</pre></body></html>
